<html>
<title> - NOMINATIONS TO THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, FEDERAL RAILROAD ADMINISTRATION, CONSUMER PRODUCT SAFETY COMMISSION, AND THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY</title>
<body><pre>[Senate Hearing 109-180]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-180
 
   NOMINATIONS TO THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, 
                                FEDERAL 
                   RAILROAD ADMINISTRATION, CONSUMER 
                  PRODUCT SAFETY COMMISSION, AND THE 
                   METROPOLITAN WASHINGTON AIRPORTS 
                               AUTHORITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                 U.S. GOVERNMENT PRINTING OFFICE

23-363                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2005...................................     1
Statement of Senator Allen.......................................    33
Statement of Senator Hutchison...................................     9
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     1
Statement of Senator Lautenberg..................................    24
    Prepared statement...........................................    24
Statement of Senator Bill Nelson.................................     4
Statement of Senator Pryor.......................................    31
Statement of Senator Stevens.....................................    10
    Prepared statement...........................................    10

                               Witnesses

Boardman, Joseph H., Nominee to be Administrator, Federal 
  Railroad Administration........................................    20
    Prepared statement...........................................    21
    Biographical information.....................................    22
Burr, Hon. Richard, U.S. Senator from North Carolina.............     8
    Prepared statement...........................................     9
Cobey, Jr., Hon. William W., Nominee to the Board of Directors, 
  Metropolitan Washington Airports Authority.....................    41
    Prepared statement...........................................    41
    Biographical information.....................................    42
Dole, Hon. Elizabeth, U.S. Senator from North Carolina...........     7
Griffin, Dr. Michael D., Nominee to be Administrator, National 
  Aeronautics and Space Administration...........................    11
    Prepared statement...........................................    13
    Biographical information.....................................    15
Nord, Nancy A., Nominee to be Commissioner, Consumer Product 
  Safety Commission..............................................    36
    Prepared statement...........................................    37
    Biographical information.....................................    38
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............     2
Mikulski, Hon. Barbara A., U.S. Senator from Maryland............     4
Schumer, Hon. Charles E., U.S. Senator from New York.............     5
    Prepared statement...........................................     6

                                Appendix

Johnson, Hon. Tim, U.S. Senator from South Dakota, letter dated 
  April 4, 2005 to Hon. Ted Stevens and Hon. Daniel K. Inouye....    47
King, David D., Deputy Secretary for Transit, NC Department of 
  Transportation, letter dated April 7, 2005 to Hon. Ted Stevens 
  and Hon. Daniel K. Inouye......................................    47
Response to written questions submitted to Joseph Boardman by:
    Hon. Byron L. Dorgan.........................................    52
    Hon. Daniel K. Inouye........................................    53
    Hon. Frank R. Lautenberg.....................................    53
    Hon. David Vitter............................................    51
Response to written questions submitted to Dr. Michael D. Griffin 
  by:
    Hon. John McCain.............................................    48
    Hon. Bill Nelson.............................................    50
    Hon. David Vitter............................................    49

















                      NOMINATIONS TO THE NATIONAL

                 AERONAUTICS AND SPACE ADMINISTRATION,

                    FEDERAL RAILROAD ADMINISTRATION,

                  CONSUMER PRODUCT SAFETY COMMISSION,

           AND THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY

                              ----------                              


                        TUESDAY, APRIL 12, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:28 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. At the direction and instructions of the 
Chair, I want to welcome all the nominees with us today and 
especially the families. You have a lot to be proud of, and I 
know that this is a very important day for all of you. And so I 
will place my statement on each nominee in the record, because 
I think we would like to expedite the hearings. I will have a 
few questions, but those, too, will be made part of the record.
    [The prepared statement of Senator Inouye follows:]

             Prepared Statement of Hon. Daniel K. Inouye, 
                        U.S. Senator from Hawaii
    I want to welcome Dr. Michael Griffin, the President's nominee to 
be the next Administrator of the National Aeronautics and Space 
Administration (NASA). Dr. Griffin brings with him an impressive resume 
and extensive experience in both the public and private sector. I am 
confident that Dr. Griffin will leverage this experience to get NASA 
back on track.
    Dr. Griffin's major challenge will be returning credibility to 
NASA. There are issues with returning to flight, competition from other 
countries, and striking an appropriate balance in science, and with 
fiscal responsibility.
    It has been over two years since the Columbia Shuttle disaster and 
NASA is still feeling the effects.
    Dr. Griffin, you will take the reins at an agency that is dedicated 
to returning the shuttle safely to flight. However, in recent weeks, we 
have heard concerns from members of the Stafford-Covey team, NASA 
engineers, and other members of the NASA family. You are in the 
unenviable position of having to sign off on the safety of the flight 
without having had the opportunity to oversee the implementation of the 
Columbia Accident Investigation Board's recommendations. Space flight 
is never without risk, but I hope you will take the time to assure 
yourself that our astronauts face the minimum risk possible when 
heading into space.
    NASA and the United States are facing competition from other 
countries looking to establish a presence in orbit. China recently put 
a man into space and plans to build a space station. Japan just 
announced a 20-year initiative to go to the moon.
    In addition, we are already aware of Europe and Russia's space-
faring capabilities. Our presence in space is not only a matter of 
national prestige, but of strategic importance. This is clearly an area 
where we not only have to compete, but lead, and the leadership will 
need to come from NASA.
    As the agency pursues exploration, NASA should not sacrifice its 
scientific pursuits. NASA is one of this country's leading scientific 
agencies, which over the years has made major contributions to science 
and aeronautics. Robotic missions to Mars, the numerous space 
telescopes that beam back magnificent images of the universe, and Earth 
science satellites are all examples of how NASA can produce valuable 
discoveries without endangering human life. I hope that Dr. Griffin 
shares my view on the importance of NASA's commitment to basic science.
    As I mentioned earlier, Dr. Griffin has several major challenges 
awaiting him at NASA. Fiscal responsibility and credibility is perhaps 
the most fundamental challenge. The agency has a dismal record when it 
comes to estimating costs. Auditors have been unable to certify the 
agency's accounting books in three out of the last four years, and 
Congress has been told not to expect a clean audit for Fiscal Year 
2005. NASA needs to be on sound financial footing as it goes forward 
with the President's Vision for Exploration.
    While Congress often focuses on the negative, I would be remiss in 
closing without saying that Dr. Griffin takes the helm of a great 
agency. The men and women of NASA are redefining what is possible. I 
look forward to working with you, Dr. Griffin, to help NASA respond to 
the challenges it faces.
    I welcome Commissioner Joe Boardman here today as we consider his 
appointment as Administrator of the Federal Railroad Administration 
(FRA). Mr. Boardman presently heads the New York State Department of 
Transportation. I understand that Mr. Boardman is considered a leader 
on rail issues among state transportation officials and we look forward 
to learning more about him and working with him.
    Several recent high profile railroad accidents have raised this 
Committee's concern and Mr. Boardman will have many challenges, 
including, strengthening the safety of our nation's railroads.
    Amtrak faces yet another crisis this year, in part due to the 
Administration's proposal to zero-out Amtrak and bankrupt the railroad. 
We are all anxious to learn your thoughts on reauthorizing Amtrak and 
your opinion of the Administration's plans for radical restructuring or 
bankruptcy.

    Senator Inouye. We have several of our colleagues here, so 
we would like to hear from them. May I call upon my dear 
friend, Paul Sarbanes? Senator Sarbanes of Maryland.

              STATEMENT OF HON. PAUL S. SARBANES, 
                   U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. Well, thank you very much, Senator Inouye 
and Members of the Committee.
    I have come with my esteemed colleague, Senator Mikulski, 
to introduce a highly respected leader in Maryland's scientific 
community, Dr. Michael Griffin, who is the President's nominee 
to serve as the next Administrator of NASA. We think this is 
just an outstanding nomination.
    Dr. Griffin is a native of Maryland, born in Aberdeen, the 
home of Cal Ripken, Jr., I might note, for whatever relevance 
that has to the hearing.
    [Laughter.]
    Senator Sarbanes. And he has been educated in some of our 
nation's finest academic institutions. He has his Bachelor of 
Arts degree in Physics from the Johns Hopkins University, and 
he has earned five master's degrees; Aerospace Science from 
Catholic University, Electrical Engineering from the University 
of Southern California, Applied Physics from Johns Hopkins, 
Civil Engineering from George Washington University, and 
Business Administration from Loyola College of Maryland. He 
also earned his Ph.D. in Aerospace Engineering from the 
University of Maryland. So, as you can see, Dr. Griffin is 
literally, quite literally, a rocket scientist.
    He is currently the Space Department Head of the Johns 
Hopkins University Applied Physics Laboratory in Howard County, 
Maryland. Johns Hopkins APL is a nonprofit division of the 
Johns Hopkins University, and, under the strong leadership of 
Dr. Richard Rocca, serves as one of the premier research and 
development institutions in the nation. For almost 50 years, 
APL's Space Division has played a central role in supporting 
our nation's civilian and military space programs. And they 
have carried out any number of very, very important scientific 
endeavors there.
    The New York Times put it well in an editorial strongly 
supporting Dr. Griffin's nomination, entitled very simply but 
appropriately, ``A Talented Leader.'' He has held a number of 
leadership positions during his long career in both the public 
and private sectors. They have demanded an extraordinarily high 
level of both scientific excellence and administrative 
capabilities. And he has met those challenges at a very high 
standard.
    Currently the head of APL's Space Division, Mike Griffin 
oversees a staff of over 600 employees, and a budget well in 
excess of $200 million. He has, of course, had very important 
experience at NASA in the upper echelons as both the Chief 
Engineer and the Associate Administrator for Exploration. He 
has held important management positions in the private sector. 
In addition to his administrative and research interests, he 
has continued to do important academic work. He continues to 
serve as an adjunct professor at Maryland and Hopkins.
    I need not mention to this Committee the challenges faced 
in the space program. We think that the expertise and the 
passion that Mike Griffin brings to the job is exactly what is 
needed.
    I am very pleased to come before the Committee today to 
very strongly endorse his nomination. And I very much hope the 
Committee can act expeditiously and favorably on this 
nomination.
    Thank you very much.
    Senator Inouye. Thank you very much, Senator Sarbanes.
    I must apologize to my colleagues. I forgot to call upon 
them.
    Senator McCain, do you have any statement?
    Senator McCain. No, thank you, Mr. Chairman.
    Senator Inouye. Senator Lautenberg?
    Senator Lautenberg. I would like to proffer some remarks 
after we have heard from our friends at----
    Senator Inouye. All right. Senator Hutchison?
    Senator Hutchison. I will also make remarks following the 
witnesses at the witness table. I would like to make an opening 
statement as Chairman of the NASA and----
    Senator Inouye. OK. Senator Nelson of Florida?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I just think Dr. Griffin is 
an outstanding choice. I think he is going to be a breath of 
fresh air. And not only does he, in fact, bring the credentials 
to the table that he is, in fact, a rocket scientist, he 
carries himself with great humility. And I think that is going 
to fit very well with the NASA family.
    Senator Inouye. Senator Mikulski.

            STATEMENT OF HON. BARBARA A. MIKULSKI, 
                   U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Thank you very much, Senator Inouye and 
to members of the panel.
    I am here really under two flags: One, the proud flag of 
Maryland, talking about one of Maryland's favorite sons, Dr. 
Mike Griffin, to be nominated for the NASA Administrator, and 
then the other as the Ranking Member on the Senate 
Appropriations Committee who has responsibility for the funding 
of NASA programs.
    I want to thank President Bush for nominating such an 
outstanding candidate to head up NASA at this time of great 
strategic importance for NASA's future and also the fact that 
the NASA Administrator has to deal with the long-range plans 
and the short-range crises that we are now facing.
    Under the Maryland flag, as Senator Sarbanes said, Mike 
Griffin is really a hometown guy, coming from Aberdeen, the 
home of Cal Ripken, Jr. What is important about that is he 
brings those, what we call, those Ripken values, that Ripken 
way, to NASA. What does that mean? To be the best of what you 
best can be and to work hard at it, to concentrate with a high 
level and degree of competence, but at the same time to put 
values into action, playing by the rules, serving your 
community, and being an outstanding citizen. This is what Mike 
Griffin has done. He has gone to our local schools; Aberdeen 
High School, Johns Hopkins, Loyola, Maryland. He has five 
master's degrees in a variety of engineering and physics, and 
also even an MBA from Loyola College. Much has been made over 
the fact that he is a rocket scientist. Thank God that we are 
really going to have someone who understands what this is all 
about.
    Because the very safety of our astronauts will depend on 
the quality of this NASA Administrator, as we get ready to 
return to flight. Much has been made over the fact that he 
worked at the Johns Hopkins Applied Physics Lab, heading their 
Space Department, knowing what earth science means, knowing 
what space science means, and knowing what it means to be a 
contractor and to meet the bottom line while serving the 
nation.
    Dr. Griffin brings a variety of experiences from within 
government, within the Applied Physics Lab, as well as the 
private sector, with the Magellan Systems and the Orbiter 
Systems. And he even ran a nonprofit company for the CIA, when 
the CIA created a nonprofit venture capital firm, to search for 
new technologies that would serve the nation. He is a rare 
combination of a scientist, an engineer, and a manager.
    Dear colleagues, as the Commerce Committee knows, NASA is 
facing enormous challenges right now; The need to return to 
flight safely. We need to send our astronauts not only back 
into space but to return them safely. We need to be able to 
finish that Space Station. I, of course, want to save the 
Hubble and hope that Dr. Griffin is an able partner in that. We 
need to see how they are going to implement the Moon/Mars 
Initiative, at the same time revise aeronautics, which is so 
crucial. I am sick and tired of being beaten by Airbus. I want 
to win Nobel prizes. I want to win the markets. And I want a 
NASA Administrator who can do that.
    This is what I think Mike Griffin will help be able to do, 
a framework where we meet the immediate crises facing us, but 
at the same time look to the long-range needs of our country.
    So I am proud to introduce him as both a Marylander and the 
Ranking Member on the Senate Appropriations Committee now 
responsible. And also, I want to thank--while Dr. Griffin has 
served the nation, his wonderful wife, Rebecca, has been behind 
him. And we know that behind every great rocket scientist was 
the woman who provided the rocket.
    [Laughter.]
    Senator Mikulski. So thank you very much. And I hope that 
we send his nomination forward quickly.
    Senator Inouye. How can we say no?
    Senator Schumer?

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. And I want to 
thank the Members of the Committee. I am delighted and proud to 
introduce someone who is not a rocket scientist, but an expert 
on transportation and administration, to the Committee. And 
that is Joseph H. Boardman of New York.
    He is currently the Commissioner of the New York State 
Department of Transportation. He is the nominee to be the next 
Administrator of the Federal Railroad Administration. I've 
known Joe for a long time. We have worked closely together on 
many transportation projects in New York State, and I think he 
will do a great job at FRA. And I recommend him wholeheartedly, 
as does my colleague, Senator Clinton, who could not be here 
today.
    Joe has been the head of the New York State Department of 
Transportation for the last 7 years. He made a lifetime of 
working to make all modes of New York's transportation system 
safer and more efficient. He is a hometown boy, as well, for 
us. He is a lifelong New Yorker. He worked his way up. He is 
from the Mohawk Valley in upstate New York, where my dad was 
raised. He has worked his way up from being manager of both the 
Transportation and Parking Authorities of Rome, New York, to 
Commissioner of Public Transportation in Broome County, in 
which Binghamton lies, to finally becoming the Commissioner of 
Transportation in 1997.
    And New York has one of the largest and most complex 
transportation systems in the country. Throughout these 
experiences, Commissioner Boardman showed that he possessed the 
unique knowledge of how essential, safe, fast, and easily 
accessible transportation is vital to local communities and to 
economic growth of entire states, regions, and across the 
country. I am proud to say that, as Commissioner, Joe has 
expanded Amtrak service across New York, presiding over record 
growth in ridership. He has enhanced his department's ability 
to inspect and crack down on rail safety violations and made 
safety a top priority. He is going to need these two traits.
    Before I sat down with the Commissioner and spoke with him, 
he assured me he would fight hard for Amtrak. We all know that 
is going to be a big, big fight in the Senate this year and in 
the budget. And furthermore, with the recent revelations of 
safety lapses in our rail system, particularly our freight rail 
system, he has assured me he would focus on that. The FRA, I 
think, has a little bit lost its way in that area over the last 
few years. And I think Joe Boardman will bring it up to snuff.
    So he is a thoughtful, knowledgeable, and dedicated 
transportation official. I look forward to working with him. I 
am proud to endorse his nomination and introduce him to this 
very, very special Committee.
    Senator Inouye. Thank you very much, Senator Schumer.
    [The prepared statement of Senator Schumer follows:]

            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    Chairman Stevens, Ranking Member Inouye, and Committee Members, I 
am proud and delighted to introduce Joseph H. Boardman of New York, 
current Commissioner of the New York State Department of Transportation 
and nominee to be the next Administrator of the Federal Railroad 
Administration. I know that Commissioner Boardman will do a great job 
at the FRA and recommended his nomination wholeheartedly.
    Commissioner Boardman has been head of NYSDOT for the last seven 
years, after a lifetime of working to make of New York's transportation 
system safer and more efficient. A lifelong New Yorker, born and raised 
on a dairy farm in Oneida County, Commissioner Boardman worked his way 
up from being manager of both the Transportation and Parking 
Authorities of Rome, NY, to Commissioner of Public Transportation in 
Broome County, to finally becoming Commissioner of Transportation in 
1997 of one of the largest and most complex transportation systems in 
the country.
    Through these experiences, Commissioner Boardman possesses unique 
knowledge of how essential safe, fast, and easily accessible 
transportation is to local communities and to the economic growth of 
entire states, regions, and across the country.
    As Commissioner, Commissioner Boardman has expanded Amtrak service 
across New York, presiding over record growth in ridership, enhanced 
his Department's ability to inspect and crack down on rail safety 
violations, and made safety a top priority at both the state and 
national levels.
    Rail safety and the preservation of Amtrak are the two most 
pressing issues confronting Commissioner Boardman as he takes the 
reigns of the FRA. I have full confidence that Commissioner Boardman 
will be an ally in the fight to make our rail lines safer, though the 
use of tougher regulation, heavier penalties for negligent railroad 
companies, and the expansion of available modern technology.
    Commissioner Boardman is a thoughtful, knowledgeable, and dedicated 
transportation official and I look forward to working with him to make 
our nation's rail system the safest and most efficient in the world.

    Senator Inouye. We were all pleased to see Senator Dole on 
Meet the Press. And I know that his book will be a best seller.
    Senator Dole. Thank you.
    Senator Inouye. Senator Dole.

               STATEMENT OF HON. ELIZABETH DOLE, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Dole. Thank you very much.
    Senator Inouye, distinguished Committee Members, it gives 
me great pleasure and it is indeed an honor to support this 
morning Bill Cobey, nominated to serve as a member of the 
Washington Airports Authority Board. Bill has demonstrated a 
long and dedicated commitment to public service over the years 
for our Home State of North Carolina and our nation. Without a 
doubt, one of the most rewarding and challenging projects I 
chose to undertake while serving as Secretary of Transportation 
was the task of moving National and Dulles International 
Airports out of the Federal Government.
    National was a rather shabby, small gateway to the nation's 
capital. And following airline deregulation, Dulles was 
desperately in need of vast expansion. I will never forget the 
night in 1984 when my husband and I were having a little pillow 
talk, Senator Inouye. And I told him of my conviction that it 
was time for Uncle Sam to ``free the airports.'' Bob's 
reaction? He said, ``Forget it, Elizabeth. It has been tried 
eight times since 1949, and it never got out of committee.'' 
And he rolled over and went to sleep. As far as I was 
concerned, the gauntlet had been thrown down.
    [Laughter.]
    Senator Dole. I later found that Bob was absolutely correct 
in predicting the journey to regional control would be a very 
tough one indeed. But after 3 years of dedicated effort from a 
very talented team and the help of you, Senator Inouye, and 
other Committee Members, it passed both houses of Congress and 
was signed into law by President Reagan.
    In 1987, independent operation of Washington's two airports 
became a successful partnership. Our plan was working. The 
airports were able to raise the necessary funds through sales 
of tax-free bonds to provide for the capital improvements and 
expansions. Today, Washington's two airports serve 39 million 
passengers annually with 1,069 daily flights to over 100 
destinations throughout the United States and 36 countries 
worldwide.
    It is the responsibility of the Washington Airports 
Authority Board to oversee the airports and their security, 
safety, development and maintenance. I commend the board for 
their excellence in handling the more than 100,000 passengers 
who use the two airports on a daily basis. And I thank Senator 
Stevens for all his help in creating this board. He signed the 
cloture petition for the enabling legislation. And he 
``Hulk'ed'' the provision through on an omnibus bill. Without 
his leadership, we would not be having this hearing today.
    And Senator Inouye, I thank you for your hard work in 
making that bill a bipartisan effort, which has indeed made air 
travel to and from our nation's capital far easier and less 
expensive.
    I know that Bill Cobey will be a wonderful asset, will do a 
great job as an addition to the Airports Authority Board. Bill 
has served his state and nation in many different capacities, 
and he has an outstanding list of accomplishments.
    He received his undergraduate education from Emory 
University in Atlanta and then earned an MBA from the 
prestigious Wharton School of Business at the University of 
Pennsylvania and an M.Ed. in health and physical education from 
the University of Pittsburgh. Prior to representing North 
Carolina in the U.S. Congress, Bill served as Governor Jim 
Martin's Deputy Secretary of Transportation and later as 
Secretary of North Carolina's Department of Environment, 
Health, and Natural Resources.
    A devoted husband, father and grandfather, Bill is a man I 
am proud to call my friend, a man of tremendous character, a 
man committed to making our country better. I am confident that 
the board and the country will benefit from his service.
    I thank you for this opportunity to express my admiration 
and respect for Bill Cobey, Mr. Chairman, and to present him to 
the Committee. Thank you.
    Senator Inouye. Thank you very much, Senator Dole.
    And now I would like to welcome Senator Burr.
    Senator Burr.

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Chairman Inouye and Members of the 
Committee. I am proud to be here today representing North 
Carolina, the home of this year's collegiate basketball 
champions and, as of last night, Miss USA.
    It is my pleasure today to introduce Bill Cobey of Durham, 
North Carolina. And I am here today to fully endorse his 
nomination to the board of the Metropolitan Washington Airport 
Authority. It should be noted that Bill was elected to the 
House of Representatives in 1984 and served with Senators 
McCain, Lott, Snowe, Dorgan, and Senator Boxer, all current 
Members of the Commerce Committee, as Members of the House in 
the 98th Congress.
    While Bill's well-documented service to our state and 
country as a Congressman, cabinet secretary in Raleigh, and 
public university advocate qualify him for a position on the 
Authority's board, I believe it will be his background as an 
athletic director at one of the nation's most successful 
universities that will best serve the mission of the board. 
Athletic directors are known for their tenacity in raising 
money and support for capital improvement projects. And his 
success at the University of North Carolina and the success of 
the school's athletic program and what it enjoys today are the 
direct result of capital campaigns undertaken by the school 
during his tenure as athletic director.
    His wealth of knowledge in these endeavors and deep reserve 
of people skills will position the Authority well as it 
prepares current and future capital improvements at Reagan and 
Dulles Airports.
    Mr. Chairman, I look forward to the Committee favorably 
reporting on Bill's nomination. And I will be honored to cast 
my vote for him when the nomination is considered by the full 
Senate.
    Thank you.
    [The prepared statement of Senator Burr follows:]

               Prepared Statement of Hon. Richard Burr, 
                    U.S. Senator from North Carolina
    Chairman Stevens and Senator Inouye, it is my pleasure to introduce 
Mr. Bill Cobey of Durham, North Carolina, and I am here today to fully 
endorse his nomination to the board of the Metropolitan Washington 
Airport Authority.
    It should be noted that Bill was elected to the House of 
Representatives in 1984 and served with Senator McCain, Senator Lott, 
Senator Snowe, Senator Dorgan and Senator Boxer, all current Members of 
the Commerce Committee, as Members of the House in the 98th Congress.
    While Bill's well-documented service to our state and country (as a 
Congressman, Cabinet Secretary in Raleigh, and public university 
advocate) qualify him for a position on the Authority's board, I 
believe it will be his background as athletic director at one of the 
nation's most successful university's that will best serve the mission 
of the board.
    Athletic directors are known for their tenacity in raising money 
and support for capital improvement projects, and his success at the 
University and the success the school's athletic program enjoys today 
are the direct result of capital campaigns undertaken by the school 
during his tenure as athletic director. His wealth of knowledge in 
these endeavors and deep reservoir of people skills will position the 
Authority well as it prepares current and future capital improvements 
at Reagan and Dulles airports.
    I look forward to the Committee favorably reporting out Bill's 
nomination and I will be honored to cast my vote for him when the 
nomination is considered by the whole Senate.

    Senator Inouye. I thank you very much, Senator Burr.
    And thank you, Senator Dole.
    And now it is my pleasure to call upon the first panel, Dr. 
Michael Griffin, nominated to be Administrator of the National 
Aeronautics and Space Administration, and Mr. Joseph Boardman, 
nominated to be Administrator of the Federal Railroad 
Administration.
    Senator Hutchison. Mr. Chairman, could I make an opening 
statement as the witnesses are coming forward? Could I make my 
opening statement?
    Senator Inouye. Go ahead.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. As Chairman of the NASA and Science 
Subcommittee, I just want to say how pleased I am with the 
nomination of Dr. Michael Griffin, because I think having his 
leadership, his expertise, his knowledge at this time when we 
are trying to get the return to flight and set NASA on its 
mission for the next 50 years, I think having a leader such as 
Michael Griffin will enable us to get a clear focus of where we 
want NASA to go. And so I am very supportive of his nomination.
    We are going to have several hearings in our Committee to 
talk about the importance of the Shuttle, and the Space 
Station. And I will have questions later for Dr. Griffin 
regarding some of those issues. But I do want to ask the 
Chairman and the Ranking Member to consider trying to get Dr. 
Griffin's nomination out of the Senate this week. We know that 
return to flight is on a time schedule. And having the, not 
permanent leader of NASA, but certainly the designated leader 
of NASA on board by Monday would help accomplish the return to 
flight on that timetable.
    So Mr. Chairman, I hope that we can expedite his votes from 
the Committee and further have this on the Senate floor before 
we leave this week. That would be my request.
    Senator Nelson. Mr. Chairman, I want to support Senator 
Hutchison's comment. NASA needs a leader, as we are coming back 
to flight. And if you can honor Senator Hutchison's request to 
expedite this nomination to the floor so that he could be in 
place the beginning of next week, I think it would serve the 
Nation well.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman [presiding]. Senator, if we have a quorum 
tomorrow, we will report the nomination.
    Dr. Griffin, first let me say, I apologize. I was appearing 
before the Intelligence Committee to introduce my great friend, 
Ambassador Negroponte, to that committee for the confirmation 
to his new post as Director of National Intelligence. I want to 
put in the record without objection the statement I would have 
made had I been here to open the hearing.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    The Committee will come to order.
    Today the Committee will hear from four of the President's nominees 
and the Senators who will introduce them. On the first panel will be 
Dr. Griffin and Mr. Boardman.
    Dr. Michael Griffin was nominated on March 14, 2005 to be NASA 
Administrator. Senator Mikulski will introduce him.
    Joseph Boardman was nominated on March 17, 2005 to Head the Federal 
Railroad Administration. Senator Schumer will introduce Mr. Boardman.
    The second panel will have Nancy Nord, who was nominated on 
February 28, 2005 to be a Commissioner of the Consumer Product Safety 
Commission. Ms. Nord is a South Dakota native, and I understand 
Senators Thune and Johnson support her nomination.
    Former Representative Bill Cobey was nominated to the Metropolitan 
Washington Airports Authority on February 28, 2005. Senators Dole and 
Burr will introduce him.
    I do not have a lengthy statement, but will just say that these 
nominees, if confirmed, will join important agencies.
    NASA is in the process of returning the Space Shuttle to flight 
after the Columbia accident and re-organizing itself to pursue the 
President's vision for space exploration.
    The authorization for the Federal Railroad Administration has 
expired, and the next FRA Administrator will have to work closely with 
this Committee to re-authorize that agency.
    The authorization for the Consumer Product Safety Commission has 
also expired, and the Commission's authority to operate with a two 
member quorum expires at the end of this month.
    Finally, the Metropolitan Washington Airports Authority will play 
an important role in the future of general aviation access in the 
Washington area.
    Before I recognize my Co-chairman, let me ask the Committee to 
submit post-hearing questions as quickly as possible. All nominees are 
anxious to move forward. NASA in particular needs a new administrator 
as the Space Shuttle returns to flight next month.

    The Chairman. Dr. Griffin, would you please introduce your 
family? I believe there are some of them here. Are there?
    Dr. Griffin. Yes, sir, there are. My wife Rebecca; my 
brother-in-law, Ray Hand; and one of my daughters, Allison 
Griffin are here with me today. I am very pleased.
    As much as I dislike to correct any statement made by 
Senator Mikulski, I would have to say that Rebecca is actually 
the one who lights the fire, rather than bringing the rocket.
    [Laughter.]
    Senator Hutchison. It looks like you are going to have to 
expand on that comment.
    The Chairman. Michael, I will be glad to hand her the 
torch.
    [Laughter.]
    The Chairman. Mr. Boardman, would you introduce your 
family, please?
    Mr. Boardman. Yes, Senator. My wife is with me, Joanne 
Boardman.
    The Chairman. Thank you, Mr. Boardman.
    Mr. Boardman. And my kids are all watching.
    The Chairman. Good.
    Well, we are delighted to have these two nominees. First, 
Dr. Griffin, nominated to be Administrator for the National 
Aeronautics and Space Administration, we would be pleased to 
hear any statement you wish to make.

      STATEMENT OF DR. MICHAEL D. GRIFFIN, NOMINEE TO BE 
         ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Dr. Griffin. Sir, I would like to enter my formal written 
statement for the record, if there are no objections at this 
time, and will just take a couple minutes for comments, if that 
would be OK.
    The Chairman. We are happy to put all the nominees' 
statements in the record, as if read, and have your comments.
    Dr. Griffin. Thank you, sir. Thank you very much for the 
opportunity to appear at this hearing. Also, I would like to 
convey my thanks to Senator Sarbanes and Senator Mikulski for 
those introductions, which were certainly somewhat over the top 
for a simple aerospace engineer from a small town. So I am very 
grateful for the sentiments I have heard also from Senators 
Hutchison and Nelson. They are very gratifying.
    We are here today at a time which is a watershed moment for 
the space program. The timing was brought to us in the saddest 
possible way by the loss of Columbia in February of 2003 and 
our efforts since then to regroup from that loss and to move 
on. The timing is forced upon us. But it does produce a 
watershed moment, and that watershed has been crossed.
    In the wake of the failure investigation from Columbia, it 
has become clear that the United States needs to look in new 
directions and to look beyond where we have been with our 
program in the last several decades. In the words of the 
Columbia Accident Investigation Board, the United States is not 
going to abandon human space flight. But for the foreseeable 
future, it will be expensive, difficult, and dangerous. The 
goals that we seek out should be worthy of the cost and the 
risk.
    I think it is now understood that a human space flight 
program focused only on the completion of the International 
Space Station and the servicing of that Station with the 
Shuttle does not qualify as a goal which is worthy of the 
expense, the risk, and difficulty of human space flight.
    Now President Bush has seen beyond that and has proposed a 
new program. It is the right strategic program. It is the right 
strategic direction for the United States civil space program 
and I support it wholeheartedly. I have no doubt that the 
Members of this Committee have had access to some of my written 
record on this point and know that this topic is the one 
closest to my heart with regard to the direction of the 
program.
    There are many who say that the proposals President Bush 
has made cannot be afforded. I did a little homework and I 
would point out something which may not be generally realized. 
We look back at the Apollo years as a time when NASA, received 
essentially all the money that it needed, all the money that it 
wanted even. I do not believe that that was actually the case, 
having looked at the record. But that is the mythology of the 
time, was that NASA was in a funding-unlimited period for the 
Apollo program.
    Well, the Apollo years, viewed more broadly, spanned the 
period from 1959 through 1974, at which time we had finished 
the Apollo-Skylab missions. So it is the early part of the 
Agency, its first 16 years, if you will. If you compare the 
funding received, the funding which was made available on 
behalf of the citizens to the Space Agency in that first 16 
years, it is within a couple of percent of the funding which 
has been made available to the Agency in the last 16 years of 
its existence. You can mess around with that number a little 
bit, depending on which inflation adjustment you care to use, 
but it is not more than a couple of percent difference, no 
matter how you calculate it.
    So NASA has been well funded by the Nation in the last 16 
years of its existence, as well funded as it was in the first. 
If we continue to receive the President's budget allocations, 
we can do the program that the President has proposed. We know 
that we can do it, because we have done it.
    The Apollo years are often looked at as the period when the 
agency had a single mission focus. That, too, is mythology. 
That, too, is incorrect. During the Apollo years, in addition 
to executing that program, which will forever remain as one of 
mankind's greatest achievements, we also executed a host of 
planetary missions in the Mariner, Ranger, Surveyor, Voyager, 
and Viking series. We executed earth science missions beginning 
with TIROS and Nimbus and moving on to ESSA and other weather 
and earth resources satellite programs.
    We executed astronomy missions, such as the Orbiting Solar 
Observatory. We executed a robust, bold aeronautics program, 
which featured 199 flights of the X-15 with only one fatality. 
We did fundamental work in the development of airline transport 
propulsion and air safety management. We did the fundamental 
aerodynamics work that led to the ability to design and build 
the Space Shuttle. All the lifting body research done at 
Edwards Air Force Base to precede the development of the 
Shuttle was accomplished during the late sixties and early 
seventies.
    So NASA has proved in its past that we can do more than one 
thing with the funding that you and your colleagues have 
provided to us, and I look forward to the opportunity to prove 
to you that we can do that again.
    Thank you very much and I stand ready to take any of your 
questions.
    The Chairman. Thank you very much, Doctor.
    [The prepared statement and biographical information of Dr. 
Griffin follow:]

      Prepared Statement of Dr. Michael D. Griffin, Nominee to be 
      Administrator, National Aeronautics and Space Administration
    Thank you, Mr. Chairman and Senators. I am honored to appear before 
you today as President Bush's nominee to be the next NASA 
Administrator. As you know, I have spent a long career in the aerospace 
business, and I believe that I will need all of that experience, and 
more, behind me if confirmed in this position. I look forward to the 
challenge.
    If confirmed as Administrator, my priorities in executing the 
duties of that office, consistent with the President's Vision for Space 
Exploration, will be:

  <bullet> Flying the Shuttle as safely as possible until its 
        retirement, not later than 2010.

  <bullet> Bringing a new Crew Exploration Vehicle into service as soon 
        as possible after Shuttle retirement.

  <bullet> Developing a balanced overall program of science, 
        exploration, and aeronautics at NASA, consistent with the 
        redirection of the Human Spaceflight Program to focus on 
        exploration.

  <bullet> Completing the International Space Station in a manner 
        consistent with our International partner commitments and the 
        needs of human exploration.

  <bullet> Encouraging the pursuit of appropriate partnerships with the 
        emerging commercial space sector.

  <bullet> Establishing a lunar return program having the maximum 
        possible utility for later missions to Mars and other 
        destinations.

    The aftermath of the tragic loss of the Space Shuttle Columbia on 
February 1, 2003 brought us to a watershed moment in the American civil 
space program. Choices had to be made. The President has put forth a 
choice, a strategic vision for the Space Program. That vision has been 
enunciated with exceptional clarity, and has been subjected to 
considerable public debate for over a year. I think it may be said 
that, while differences of opinion exist, the President's proposal has 
attained broad strategic acceptance. It is now understood that the 
International Space Station, supported by the Space Shuttle, cannot be 
the centerpiece of the Nation's Human Spaceflight Program. The 
strategic vision for the U.S. manned space program is of exploration 
beyond low Earth orbit.
    It is a daring move at any time for a national leader to call for 
the bold exploration of unknown worlds, a major effort at the very 
limit of the technical state of the art. And it was the same way back 
in 1492, when Queen Isabella overrode King Ferdinand's reluctance and 
backed Columbus' voyage to ``the New World,'' the first step in the 
creation of Spain's colonial empire. But few recall that 1492 was a key 
year in the history of Western civilization, entirely apart from the 
European ``discovery'' of the New World. The big news that year was the 
re-conquest of Granada after a ten-year siege by Spanish forces, an 
event which essentially marked the conclusion of an eight-century 
struggle against the Moorish occupation of Spain. With the Spanish 
treasury depleted, many--including King Ferdinand--believed that it was 
not the time for the nation to be embarking on what was, in that era, 
an effort right at the edge of what was technologically possible.
    But whether or not the story of Queen Isabella pledging her jewels 
to back the voyage is true, it is a matter of record that Isabella, 
Queen of Aragon in her own right, understood that several other nations 
were capable of sponsoring Columbus, and likely would if Spain did not. 
England, France, and Italy had arisen as European powers while Spain 
had struggled against the Moors, and Spain's tiny neighbor, Portugal, 
had prospered through the growth of her maritime prowess under Prince 
Henry the Navigator. The ``discovery'' of the New World had happened 
before and would have happened again, whether or not Columbus had ever 
sailed from Palos. One way or another, European settlement of the New 
World was inevitable; however, it was Isabella's bold action that 
secured Spain's role in that future. If Columbus failed, she would be 
discredited, but if he succeeded, Spain would succeed, and would become 
preeminent among the nations of her time--and that was the way it 
happened.
    And that is the way it is today. In the twenty-first century and 
beyond, for America to continue to be preeminent among nations, it is 
necessary for us also to be the preeminent spacefaring nation. Or are 
we willing to accept the world of a generation or two hence where other 
nations will be engaged in the development of the Solar System, and we 
are not? If not, then it is time to recognize that we have squandered a 
once-insurmountable lead in the arts and sciences of spaceflight. The 
best we can say for ourselves today is that our grounded Space Shuttle 
is much more sophisticated than the operational vehicles belonging to 
the two nations which have sent people into space since we have last 
done so.
    None of this is to say that the United States should necessarily 
plan to ``go it alone'' in space exploration. Great nations must be 
prepared to do so when necessary, but it is equally true that great 
nations need allies and partners. There is room for these relationships 
in the President's Vision for Space Exploration, and certainly we have 
benefited from the Russian capability to support the International 
Space Station during the two years in which the Shuttle has been 
grounded. But in the future, the United States should avoid dependence 
upon other nations for critical spacefaring systems.
    Many who share the President's strategic vision for space 
exploration are nonetheless lukewarm in their support, believing it to 
be unaffordable or unsustainable. This concern is understandable. 
Former Undersecretary of Defense for Acquisition, Technology, and 
Logistics, and Chair of the President's Commission on Implementation of 
United States Space Exploration Policy, Pete Aldridge, has pointed out 
that to be effective, the commitment to space exploration needs to be 
sustained over multiple Presidential Administrations and sessions of 
Congress.
    The strategic vision for space must therefore be broadly inclusive, 
to enable a consistent and appropriate level of financial support 
without disruptive funding peaks and valleys. The decision to have a 
robust space program is like the decision to have a capable military 
force--it cannot be made in one year and un-made in the next. The 
nation does not debate, each year, whether or not it will have such 
forces. A similarly sustained bipartisan commitment to American 
leadership in space is required.
    And, at least since the aftermath of the Challenger accident, 19 
years ago, we have had exactly that commitment. In constant dollars, 
NASA has received approximately the same allocation of funding from the 
taxpayers in the last sixteen years--the Space Station Era--as it 
received in its first 16 years--the Apollo Era. If we are less 
attracted to the results of the Station Era than of the Apollo Era, 
then we need to reconsider our goals and our manner of pursuing them. 
But if funding levels continue in accordance with the President's 
plans, resources are sufficient to enable a U.S. return to the Moon, 
and, later, to go to Mars. The country has already demonstrated the 
consistent support that NASA must have over an extended period of time 
to execute a program of human exploration. We simply have been doing 
other things with that money.
    The arts and sciences of spaceflight are not restricted to human 
spaceflight. Robotic spacecraft such as those of Spirit and Opportunity 
have taken us, by proxy, to the surface of Mars. Galileo, Cassini and 
Voyager have taken us to Jupiter, Saturn, and the outer reaches of the 
Solar System. New Horizons will shortly set sail for Pluto, the last 
remaining planet (so far as we know) not yet visited by any spacecraft 
from Earth. And, of course, the Great Observatories, including the 
Hubble Space Telescope, Chandra, Spitzer, and Compton, have allowed us 
to extend our gaze to the very edge of the Universe, and back in time 
almost to its beginning. The images and the knowledge returned to us by 
these, our surrogates, have shaped our culture, our view of the 
Universe, and our place in it almost as powerfully as if human 
explorers had been present. As we undertake to redirect our Human 
Spaceflight Program, it is crucial that we do it without damaging 
NASA's outstanding science programs, which have been among the crown 
jewels of the nation's achievements.
    Those who claim that NASA cannot afford robust programs in both 
robotic science and manned spaceflight are mistaken. NASA in the Apollo 
Era was hardly the ``single mission agency'' in the simplified view 
that is often heard today. In addition to the manned spaceflight 
development programs of the time, NASA executed dozens of Explorer-
class missions, a dozen Pioneer missions (including Pioneer 10 and 11 
to Jupiter and Saturn), Ranger 1-9, Surveyor 1-7, Mariner 1-10, the 
Orbiting Solar Observatory, Orbiting Geophysical Observatory, and 
Orbiting Astronomical Observatory series, and paid for most of the 
Viking missions to Mars, which were launched in 1975. Communications 
satellite development was initiated with Telstar and Early Bird, while 
the TIROS, NIMBUS, and ESSA series did the same for weather satellites. 
In addition to these robotic science and technology development 
missions, NASA also executed 199 X-15 flights (which still hold the 
speed record for piloted flight within the atmosphere), and 
accomplished an otherwise vigorous program of aeronautics development, 
including the liftingbody research which enabled the development of the 
Space Shuttle. This hardly seems the record of a ``single mission 
agency.''
    My conclusion is that we as a nation can clearly afford well-
executed, vigorous programs in both robotic and human space exploration 
as well as in aeronautics. We know this. We did it. NASA can do more 
than one thing at a time.
    The Nation is not going to abandon space exploration, human or 
robotic. Given this, the proper debate in a world of limited resources 
is over which goals to pursue. I believe that, if money is to be spent 
on space, there is little doubt that the huge majority of Americans 
would prefer to spend it on an exciting, outward-focused, destination-
oriented program. And that is what the President's Vision for Space 
Exploration is about.
    With that, I thank you, and stand ready to answer any questions you 
may have.
                                 ______
                                 
                      a. biographical information
    1. Name: Michael Douglas Griffin.
    2. Position to which nominated: Administrator, National Aeronautics 
and Space Administration (NASA).
    3. Date of Nomination: March 11, 2005.
    4. Address: Residence; Information not released to the public, 
Office; Space Department Head, Johns Hopkins University Applied Physics 
Laboratory, 11100 Johns Hopkins Road, Laurel, Maryland 20723-6099.
    5. Date and Place of Birth: November 1, 1949; Aberdeen, Maryland.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse:          Rebecca Lee Hann         Homemaker
                          Griffin
        Daughter:        Allison Renee Griffin    23 years
        Son:             Daniel Buchanan Griffin  20 years
        Daughter:        Eileen Kathryn Griffin   15 years
        Daughter:        Kathleen Michelle        5 years
                          Griffin


    7. List all college and graduate degrees. Provide year and school 
attended.

        George Washington      M.S. Civil Engineering            1998
         University
        Loyola College of      M.B.A.                            1990
         Maryland
        Johns Hopkins          M.S. Applied Physics              1983
         University
        University of          M.S. Electrical Engineering       1979
         Southern California
        University of          Ph.D. Aerospace Engineering       1977
         Maryland
        Catholic University    M.S.E. Aerospace Science          1974
        Johns Hopkins          B.A. Physics                      1971
         University


    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

    Johns Hopkins University Applied Physics Laboratory, Laurel, MD
        Space Department Head (3/04-4/05)

    In-Q-Tel, Inc., Rosslyn, VA
        President & Chief Operating Officer (8/02-3/04)

    Aerospace Consultant, Oak Hill, VA (8/01-8/02)

    Orbital Sciences Corporation, Dulles, VA
        Chief Executive Officer, Magellan Systems, Inc. (7/00-8/01)
        Executive Vice President and Chief Technical Officer (1/98-7/
        00)
        General Manager, Space Systems Group (8/95-8/97)

    Space Industries International, Inc., Houston, TX
        Senior Vice President, Program Development, and General 
        Manager, Space Industries Division (2/94-8/95)

    National Aeronautics and Space Administration, Washington, DC
        Chief Engineer (2/93-2/94)
        Associate Administrator for Exploration (9/91-2/93)

    Strategic Defense Initiative Organization, Washington, DC
        Deputy for Technology (1/89-9/91)

    Consultant, Strategic Defense Initiative Organization, Washington, 
DC
        Technical Director, Delta 183 Mission (11/87-1/89)

    American Rocket Company, Camarillo, CA
        Director, Vehicle Systems and Integration (10/86-11/87)

    Johns Hopkins University Applied Physics Laboratory, Laurel, MD
        Principal Professional Staff, Space Department (9/79-10/86)

    Jet Propulsion Laboratory, Pasadena, CA
        Supervisor, Control Systems Design Group (8/77-9/79)

    Computer Science Corporation, Silver Spring, MD
        Member of Technical Staff (4/74-10/74)

    Link Division, Singer Corporation, Silver Spring, MD
        Principal Engineer (1/72-4/74)

    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years.
    Chair, Review Board, Hubble Robotic System Deorbit Mission, for 
NASA Independent Program Analysis Office. 12/2004-03/2005.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        JHU Applied Physics Laboratory, Space Department Head, 03/2004-
        Present
        In-Q-Tel, Inc., President/Chief Operating Officer, 08/2002-03/
        2004
        STRATCOM, Consultant, 07/2002-08/2002
        Adroit Systems, Consultant, 03/2002-07/2002
        Musk Foundation, Consultant, 01/2002-03/2002
        Orbital Sciences Corp., Consultant, 10/2001-05/2002
        Interlune, Inc., Board of Directors, 1999-2005.
        Ecliptic Enterprises, Board of Directors, Consultant, 01/2002-
        08/2002
        Aerojet, Consultant 09/2001-09/2001
        Orbital Sciences, Chief Technical Officer, 08/1995-08/2001
        George Washington University, Advisory Board, Mechanical and 
        Aerospace Engineering, 2000-2004.
        University of Maryland, Advisory Board, Aerospace Engineering, 
        1997-2004.
        University of Virginia, Advisory Board, System Engineering, 
        1999-2000.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.


              Organization                            Dates

American Institute of Aeronautics and    1974-Present
 Astronautics
        Director-at-Large                1999-2004
        President-elect                  2004-2005
Institute of Electrical and Electronic   2004-Present
 Engineers
American Astronautical Society           1985-Present
International Academy of Astronautics    1996-Present
The Planetary Society                    2003-Present
Hidden Creek Country Club                1998-Present
United States Golf Association           1999-Present
Aircraft Owners and Pilots Association   1988-Present


None of the above organizations restricts membership on the basis of
  sex, race, color, religion, national origin, age or handicap.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Bush for President, 2000, $1000.
        Mikulski for Senate, 2004, $2000.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Salutatorian, Aberdeen High School, 1967.

        Maryland State Senatorial Scholarship (competitive), 1967-1971.

        Outstanding Young Engineer, AIAA National Capitol Section, 
        1983.

        Distinguished Public Service Medal, Department of Defense, 
        1986.

        Aerospace Laurels Award (Delta 180), Aviation Week & Space 
        Technology Magazine, 1986.

        Space Systems Medal, American Institute of Aeronautics and 
        Astronautics,1988.

        Nelson P. Jackson Award (Delta 181 Mission Team), National 
        Space Club, 1989.

        Significant Technical Accomplishment Award (Delta 183 Mission 
        Team), American Defense Preparedness Association, 1989.

        Exceptional Achievement Medal, National Aeronautics and Space 
        Administration, 1994.

        Centennial Medal, University of Maryland College of 
        Engineering, 1994.

        Fellow, American Institute of Aeronautics and Astronautics, 
        1994.

        Barry M. Goldwater Educator Award, AIAA National Capitol 
        Section, 1999.

        Academy of Distinguished Alumni, Dept. of Aerospace 
        Engineering, U. of Md., 1999.

        Distinguished Alumnus Award, Clark School of Engineering, 
        University of Maryland, 2000.

        Fellow, American Astronautical Society, 2002.

        Sustained Service Award, American Institute of Aeronautics and 
        Astronautics, 2003.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Editorials

        Space News, ``The Right Program'', 1/19/04
        Space News, ``Heavy Lift on the Cheap'', 3/01/04
        Space News, ``Exploration and Commercial Space'', 5/17/04

    Report

        M.D. Griffin (co-author), ``Extending Human Presence into the 
        Solar System'', Planetary Society Study, July 2004.

    Textbook

        Michael D. Griffin and James R. French, Space Vehicle Design, 
        American Institute of Astronautics and Aeronautics, Washington, 
        DC, 1991; 2nd Ed., AIAA, Reston, VA, 2004.

    Technical Publications

        1. M.D. Griffin, J.D. Anderson, Jr., and R. Diwakar, ``Navier-
        Stokes Solutions for the Flowfield in an Internal Combustion 
        Engine'', AIAA Paper 76-403, AIAA 9th Fluid and Plasmadynamics 
        Conference, San Diego, CA, 14-16 July 1976.

        2. M.D. Griffin and J.D. Anderson, Jr., ``On the Application of 
        Boundary Conditions to Time-Dependent Computations for Quasi-
        One-Dimensional Fluid Flows'', Computers and Fluids, Vol. 5, 
        pp. 127-137, 1977.

        3. Michael Douglas Griffin, ``Numerical Solutions for Two- and 
        Three-Dimensional Non-Reacting Flows in an Internal Combustion 
        Engine'', Ph.D. Dissertation, Department of Aerospace 
        Engineering, University of Maryland, 1977; also, University 
        Microfilms Order #7805028.

        4. M.D. Griffin, R. Diwakar, J.D. Anderson, Jr., and E. Jones, 
        ``Computational Fluid Dynamics Applied to Flows in an Internal 
        Combustion Engine'', AIAA Paper 78-057, AIAA 16th Aerospace 
        Sciences Meeting, Huntsville, AL, 16-18 January 1978.

        5. M.D. Griffin, R.T. Cunningham, and R. Eskenazi, ``Vision-
        Based Guidance for an Automated Roving Vehicle'', AIAA Paper 
        78-1294, AIAA Guidance and Control Conference, Palo Alto, CA, 
        7-9 August 1978.

        6. M.D. Griffin, E. Jones, and J.D. Anderson, Jr., ``A 
        Computational Fluid Dynamic Technique Valid at the Centerline 
        for Non-Axisymmetric Problems in Cylindrical Coordinates'', 
        Journal of Computational Physics, Vol. 30, pp. 352-360, March 
        1979.

        7. M.D. Griffin and W.G. Breckenridge, ``A Model for Testing 
        Centerfinding Algorithms for Automated Optical Navigation'', 
        AAS Paper 79-124, American Astronautical Society Progress in 
        Astronautical Sciences, Vol. 40, Part 1, ``Astrodynamics 
        1979''.

        8. M.D. Griffin, J.D. Anderson, Jr., and E. Jones, 
        ``Computational Fluid Dynamics Applied to Three-Dimensional 
        Non-Reacting Inviscid Flows in an Internal Combustion Engine'', 
        ASME Journal of Fluids Engineering, Vol. 101, pp. 367-372, 
        September 1979.

        9. M.D. Griffin, J.R. Stevens, and J.L. Keirsey, ``Preliminary 
        Inlet Design Studies for a Hypersonic Wide-Area Defense 
        Missile'', Proceedings, 12th Naval Aeroballistics Symposium, 
        NSRDC, Carderock, MD, 1981.

        10. M.D. Griffin, ``Calculation of Inviscid Air Capture and 
        Additive Drag for 3-D Supersonic Inlet Flows'', Proceedings, 
        1983 JANNAF Propulsion Meeting, Monterey, CA, 14-18 February 
        1983.

        11. M.D. Griffin, F.S. Billig, and M.E. White, ``Applications 
        of Computational Techniques in the Design of Ramjet Engines'', 
        Proceedings, 16th International Aeronautical Congress, 6th 
        International Symposium on Air Breathing Engines (ISABE), 
        Paris, 6-10 June 1983.

        12. Michael D. Griffin, ``Computational Fluid Dynamics: A Tool 
        for Missile Design'', Johns Hopkins APL Technical Digest, Vol. 
        4, July-September 1983.

        13. M.D. Griffin, T.E. Strikwerda, and D.G. Grant, ``Space 
        Telescope System Study Report'', JHU/APL Report SDO 6941, 
        Laurel, MD, November 1983.

        14. M.D. Griffin, T.E. Strikwerda, and D.G. Grant, ``Space 
        Telescope Alternate Fine Guidance Sensor Design Study'', JHU/
        APL Report SDO 7083, Laurel, MD, November 1983.

        15. M.D. Griffin, et. al., ``Polar BEAR Mission Program Plan'', 
        JHU/APL Report SDO/PAO-0816, Laurel, MD, March, 1984.

        16. M.D. Griffin, et. al., ``Satellite-to-Satellite Gravity 
        Experiment (SAGE) Conceptual Design Study'', Vol. 1, Technical 
        Plan, JHU/APL Report SDO 7312.1, Laurel, MD, June 1984.

        17. M.D. Griffin, T.E. Strikwerda, and D.G. Grant, ``The Space 
        Telescope Alternate Fine Guidance Sensor'', AIAA Paper 84-1850-
        CP, AIAA Guidance and Control Conference, Seattle, WA, 20-22 
        August 1984; also, Johns Hopkins APL Technical Digest, Vol. 6, 
        Jan.-Mar. 1985.

        18. M.D. Griffin, et. al., ``Space Infrared Telescope Facility 
        Pointing Control System Analysis'', JHU/APL Report SDO-7434, 
        Laurel, MD, October 1984.

        19. M.D. Griffin, et. al., ``Polar BEAR Mission Interface 
        Control Document'', JHU/APL Report SDO/PAO-0817, Laurel, MD, 
        August, 1984.

        20. M.D. Griffin and J.H. Jerger, ``Preliminary Design of the 
        Industrial Launch Vehicle'', Proceedings, AIAA/DARPA Meeting on 
        Lightweight Satellite Systems, 4-6 August 1987.

        21. M.D. Griffin and M.J. Rendine, ``Delta 180/Vector Sum: The 
        First Powered Space Intercept'', AIAA Paper 88-0161, AIAA 26th 
        Aerospace Sciences Meeting, Reno, Nevada, 11-14 January 1988.

        22. M.D. Griffin and W.R. Claybaugh, ``The Cost of Access to 
        Space'', Journal of the British Interplanetary Society, Vol. 
        47, pps. 119-122, 1994.

        23. Michael D. Griffin, ``Managing the Exploration of the Moon 
        and Mars'', AAS Paper 95-476, Strategies for Mars: A Guide to 
        Human Exploration, American Astronautical Society Science and 
        Technology Series, Volume 86, 1996.

        24. M.D. Griffin and W.R. Claybaugh, ``On the Economics of 
        Staging for Reusable Launch Vehicles'', 1st Conference on 
        Commercial Development of Space, Space Technology and 
        Applications International Forum (STAIF-96), Albuquerque, NM, 
        7-11 January 1996.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.



        Date                  Committee                  Subject


May 8, 2003           House Science Committee   NASA Orbital Space Plane
                                                 Program
October 16, 2003      House Science Committee   The Future of Human
                                                 Space Flight
March 10, 2003        House Science Committee   President's Vision for
                                                 Space Exploration
April 7, 2004         Senate Commerce,          Near Earth Objects
                       Science, Transportation



                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    There is an existing private 457(b) Deferred Compensation Plan in 
connection with my present employer, the Johns Hopkins University 
Applied Physics Laboratory. As noted elsewhere, if confirmed by the 
Senate, I will resign my current position, and will at that time 
withdraw the funds currently held in this account.
    As noted elsewhere, I own interests in certain companies as part of 
the In-Q-Tel Employee Investment Plan. The companies in which I own 
such an interest are itemized in Section B, Paragraphs (3) and (6), 
below, and in Section E, Paragraph 1.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No such 
commitments or arrangements exist.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    The following securities holdings present a potential conflict of 
interest under 18 U.S.C. Sec. 208(a), although it has been determined 
that it is not necessary at this time for me to divest these interests: 
DuPont, Electro Energy Incorporated, General Electric, Eastman Kodak, 
Exxon Mobil, Honeywell, Nanosys, and Verizon.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        JHU Applied Physics Laboratory, Space Department Head, 04/
        2004--present
        In-Q-Tel, Inc., President/Chief Operating Officer, 08/2002-03/
        2004
        STRATCOM, Consultant, 07/2002-08/2002
        Adroit Systems, Consultant, 03/2002-07/2002
        Musk Foundation, Consultant, 01/2002-03/2002
        Orbital Sciences Corp., Consultant, 10/2001-05/2002
        Ecliptic Enterprises, Consultant, 01/2002-08/2002
        Aerojet, Consultant, 09/2001-09/2001
        Orbital Sciences, Chief Technical Officer, 08/1995-08/2001
        George Washington Univ., Advisory Board, Aerospace Engineering, 
        2000-2004.
        University of Maryland, Advisory Board, Aerospace Engineering, 
        1997-2004.
        University of Virginia, Advisory Board, System Engineering, 
        1999-2000.

    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: There have been 
no such activities.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If confirmed as NASA Administrator, I will resign my position as 
Space Department Head at the Applied Physics Laboratory (APL), a 
University Affiliated Research Center operated by Johns Hopkins 
University (Hopkins). Furthermore, pursuant to 5 CFR Sec. 2635.502, for 
one year after I terminate that position, I will not participate in any 
particular matter involving specific parties in which Hopkins is a 
party or represents a party, unless I am authorized to participate.
    If confirmed, I will also resign my position on the board of 
directors of, and will not serve as President of, the American 
Institute of Aeronautics and Astronautics (AIAA). Pursuant to 5 CFR 
Sec. 2635.502, for a period of one year after the termination of these 
positions, I will not participate in any particular matter involving 
specific parties in which AIAA is a party or represents a party, unless 
I am authorized to participate.
    In addition, AIAA is the publisher of a textbook, Space Vehicle 
Design, which I co-authored and which is in its second edition. I 
continue to receive royalties for this work. For so long as this 
arrangement is in effect, I will have a covered relationship with AIAA 
under 5 CFR Sec. 2635.502. Therefore, I will not participate in any 
particular matter involving specific parties in which AIAA is a party 
or represents a party, unless I am authorized to participate. I will 
not write any future revisions to this textbook while serving as 
Administrator.
    Finally, as required by 18 U.S.C. Sec. 208(a), I will not 
participate personally and substantially in any particular matter that 
has a direct and predictable effect on my financial interests or those 
of any other person whose interests are imputed to me, unless I first 
obtain a written waiver, pursuant to section 208(b)(1), or qualify for 
a regulatory exemption, pursuant to section 208(b)(2). I understand 
that the following securities holdings present a potential conflict of 
interest under section 208(a), although it has been determined that it 
is not necessary at this time for me to divest these interests: DuPont, 
Electro Energy, General Electric, Eastman Kodak, Exxon Mobil, 
Honeywell, Nanosys, and Verizon.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: There is no such information.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Your predecessor served my assistant at the 
Defense Appropriations Subcommittee. In the past year, as 
Chairman of the Appropriations Committee, I have traveled 
around the NASA area considerably. When we heard that he was 
going to step down, I have to say that everywhere I went, 
people told me I should look you up and make certain that you 
were interested and would take the position, if we could 
convince the President to appoint you. So we welcome your 
appointment.
    I will say to the Members of the Committee, we just checked 
with the floor, and if the members will agree and meet with us 
off the floor after the first vote, we will take the emergency 
action of reporting Dr. Griffin's nomination right away, 
because of the timeframe that we have heard exists for getting 
Dr. Griffin confirmed in order to proceed with the difficult 
job that he has.
    May I ask, Mr. Boardman, if you would make your opening 
statement? Then we will ask questions, let each member ask 
questions, of each one of you as we go through the Committee.

        STATEMENT OF JOSEPH H. BOARDMAN, NOMINEE TO BE 
         ADMINISTRATOR, FEDERAL RAILROAD ADMINISTRATION

    Mr. Boardman. Thank you, Chairman Stevens and Ranking 
Member Inouye, for the opportunity to speak with you this 
morning in the Committee. I would also like to thank Senator 
Schumer from my home state for a very gracious introduction.
    I am honored to be nominated to be nominated for this 
position by President Bush and if confirmed as Federal Railroad 
Administrator, I look forward to adding value to Secretary 
Mineta's team at the U.S. DOT.
    I am pleased that I have Joanne with me. And I am not the 
rocket scientist up here, Michael, but it is the support of my 
wife and family that are watching that makes my life 
worthwhile.
    Senator Lautenberg. You can check her out as an engineer on 
the railroad.
    [Laughter.]
    Mr. Boardman. If confirmed as the Federal Railroad 
Administrator, I would like to work with this Committee, other 
Senate committees, House committees, and those interested in 
railroad transportation, to further the security, safety, 
reliability, environmental improvements, and economic 
competitiveness of the railroad industry and of this nation.
    If confirmed, there are three areas that I would like to 
work on specifically and begin to concentrate on. The first one 
is safety. And while we are not doing rockets, a railroad 
system is a very complex operation, whether it is freight or 
whether it is a passenger operation. You cannot be complacent 
about safety.
    Constant attention to detail is necessary and is required 
both in the technical and in the operational sense of the 
railroad. And I believe that we also have to pay attention to 
the ergonomics and the human factors in railroad transportation 
in order to ensure a safe operation. And I will be paying 
attention to that.
    Second is intercity passenger service, Amtrak, commuter 
lines, corridor services. Congress and the Administration need 
to work together on those existing services to make 
improvements, to restructure, to reform, to maintain intercity 
passenger rail across this nation today. By working together, 
we will demonstrate our desire to have a workable and publicly 
valued passenger transportation service for our nation.
    I do not believe that a current one-size-fits-all model 
works for our nation in intercity passenger rail. And if 
confirmed, I will spend my time and my energy working to bring 
about a new era for America's intercity passenger rail service.
    And finally, I will concentrate on the human factors and 
staff development at DOT, and the FRA. If we are going to 
reform passenger rail and develop a safety strategy that will 
meet and exceed --and I think we need to exceed--the public's 
expectations on safety, then I will need to concentrate on 
building an organization that will both support and be 
supported to accomplish those changes.
    Thank you again for the opportunity to be here.
    The Chairman. Thank you very much.
    [The prepared statement and biographical information of Mr. 
Boardman follows:]
  Prepared Statement of Joseph Boardman, Nominee to be Administrator, 
                    Federal Railroad Administration
    Thank you, Chairman Stevens and Ranking Member Inouye, for giving 
me the opportunity to visit with the Committee. I would also like to 
thank Senator Schumer, from my home State of New York, for that 
gracious introduction.
    I am very honored to have been nominated for this position by 
President Bush. If confirmed as Federal Railroad Administrator, I look 
forward to adding value to Secretary Mineta's team at the U.S. 
Department of Transportation.
    I am also pleased to introduce Joanne Boardman to you, as my wife 
and partner for over 30 years. I know that my children Joe, Kathryn, 
Emily and Philip are watching this if they can find a location to do 
so, along with my other family members and friends. It is through their 
encouragement and support that I am here.
    If confirmed as Federal Railroad Administrator, I plan to work 
closely with this and other Senate and House committees to improve 
railroad safety and security, reliability, environmental impacts, and 
economic competitiveness.
    There are three initial issues that deserve my attention from the 
start.
    First and foremost, safety. I believe that we, as a society and as 
an industry, can never be complacent about safety. Railroads are among 
the most complex enterprises operated in the world today. Constant 
attention to detail is required, both in the technical and operational 
sense. I believe in understanding human factors and the environment 
within which they work, and making subsequent improvements, based on 
that understanding, that lead to safer performance.
    Second, intercity passenger rail. Congress and the Administration 
must work together to reform the existing, failing system. By doing so, 
we will demonstrate our desire to have a workable and a publicly-valued 
passenger rail service in our nation. I do not believe that the current 
one-size-fits-all model works. If confirmed I will work tirelessly to 
bring about a new era for America's intercity passenger rail.
    Finally, FRA staff development. If we are looking to reform 
passenger rail and working to develop a safety strategy that will meet 
and exceed the public's expectations, then I will need to concentrate 
on building an organization that will both support and be supported to 
accomplish those changes.
    Thank You. Again, I appreciate the opportunity to be here and I am 
happy to answer any questions you may have of me.
                                 ______
                                 
                      a. biographical information
    1. Name: Joseph H. Boardman.
    2. Position to which nominated: Federal Railroad Administrator.
    3. Date of Nomination: March 17, 2005.
    4. Address: Residence; Information not released to the public, 
Office; 50 Wolf Rd. Albany, NY 12232.
    5. Date and Place of Birth: December 23, 1948; Rome Hospital, N. 
James St. Rome, NY 13440.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: Joanne R. (Griffith) Boardman, Homemaker. Children; Joseph 
Jr. 27; Emily Beth 23; Philip James 21.
    7. List all college and graduate degrees. Provide year and school 
attended.
    BS Cornell University, Ithaca NY May 1975; MS Binghamton 
University, Binghamton NY May 1983.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.
    Manager of the Rome NY, Transit Dept; Manager Rome Parking 
Authority and General Manager, Utica Transit Authority December 1975-
July 1981 (Rome Transit position began in 1975, Parking 1979, Utica 
1980) Commissioner of Public Transportation, Broome County, NY Jul. 
1981-Dec. 1988; Chief Operating Officer and Principal, Progressive 
Transportation Services Inc., Dec. 1988-Feb. 1995; Commissioner, First 
Deputy Commissioner, and Assistant Commissioner for NYS Department of 
Transportation, Feb. 1995-Present.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.
    Member of the Executive Board for the Transportation Research Board 
(TRB), and currently 2005-2006 Chairperson; Member of the Board of 
Directors, and currently Chair of the Standing Committee on Rail 
Transportation for American Association of State Highway and 
Transportation Officials (AASHTO).
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    Lifetime member of the Roman Catholic Church (St. Patrick's, 
Taberg, NY); Life member of the VFW Post #2246 (Rome, NY) since 5/19/
04.
    12. Have you ever been a candidate for public office? No.
    13. itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    I have contributed $1,000 to George Pataki (Candidate for Governor, 
New York) every year for the past 10 years for his annual April Fund 
raiser.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.
    United States Air Force Good Conduct, Marksmanship, and Viet Nam 
Service awards; Governor Alfred E. Smith Award for Public 
Administration 2003; New York State Society of Professional Engineers 
President's Award of Excellence-June 2001; Empire State Passengers 
Association President's Award-Feb. 1999; AASHTO Award for Environmental 
Excellence-1999; AMTRAK State Partner Award-1999; March of Dimes 
Service to Humanity Award-Oct. 1998.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have authored no articles, columns, or books relating to the 
position to which I have been nominated; I give speeches nearly every 
week; sometimes, several times a week. I generally do not have written 
speeches that I use. All presentations are based on my responsibilities 
as Commissioner of Transportation for the State of NY; and, at times, 
those speeches would include subjects that would be relevant to 
railroads. The speeches that are written are maintained by the 
Department Public Relations office.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    I have never testified to Congress in a non-governmental capacity.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    New York State Deferred Compensation account; please refer to my 
financial disclosure report.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Upon confirmation, I would resign from my position of Commissioner 
New York State Department of Transportation, and from AASHTO and TRB. 
Please refer to my Ethics Agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Commissioner, New York State Department of Transportation, I 
have been active in the debate on the future of intercity passenger 
rail in New York State; in the Northeast Corridor, and nationally. I 
have also been active in Freight Rail issues as a part of the AASHTO 
``Bottom Line of Reports'' that were produced to educate Congress and 
the Administration of the need for policy development in the area of 
freight movement on the trade routes of the United States and North 
America.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If it is found that I have a conflict of interest, or an appearance 
of such a conflict, I will remove myself from the conflict if that is 
possible, or mitigate, satisfy or otherwise resolve the conflict or 
appearance of conflict to the satisfaction of the Committee and the 
Administration.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other that for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    There have been various labor grievances (some racial, some sex 
based) where I have responded for my employer as the official in charge 
of and accountable for management decisions that resulted in those 
grievances. I recall no instances that resulted in a finding of 
discrimination. In none of these instances has there been any personal 
accusation of discrimination.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Senator Inouye, do you have any questions of 
the witness?
    Senator Inouye. If I may, I would like to yield to Senator 
Lautenberg because of the special hearing.
    The Chairman. Senator Lautenberg is recognized.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. And I ask, first 
of all, unanimous consent that my full statement would be put 
in the record.
    The Chairman. Without objection, and Senator Schumer's 
statement introducing Mr. Boardman will appear, too.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey

    Mr. Chairman:
    Good morning and thank you for holding this hearing on the 
nominees to fill these important positions.
    NASA is an agency that faces many challenges, ranging from 
documented problems with financial management to accusations of 
waste and abuse. And these are credible charges made at the 
former head of the agency. Despite these concerns, the 
President's 2006 budget proposal would increase funding for 
NASA while cutting many other agencies.
    On the other hand we have Amtrak. Under new management, 
Amtrak has overhauled its financial accounting system and 
trimmed its workforce by 20 percent--while adding 20 percent 
more trains and reaching record ridership nationwide.
    Yet the President proposes to bankrupt our passenger rail 
system. Killing Amtrak would strand the 25 million passengers 
who chose inter-city rail service last year--the equivalent of 
125 thousand fully-booked 757 airplanes.
    Of course, Amtrak not only provides inter-city rail 
service. It also provides infrastructure and operational 
assistance to commuter rail lines that carry 850 thousand 
American workers every weekday. If we kill Amtrak, we will cut 
off these workers from their jobs--or force them onto already 
crowded roads, bridges and tunnels.
    Americans need Amtrak every day. But we needed it most when 
our nation was attacked on September 11, 2001. When our 
commercial aviation system was shut down on 9/11, stranded 
passengers turned to Amtrak to reunite them with their 
families. Thank goodness they had that choice. That tragic day 
reminded us that our nation cannot depend entirely on one mode 
of transportation.
    Mr. Boardman made this argument himself as chairman of the 
rail committee of the American Association of State Highway and 
Transportation Officials. In their intercity rail report, he 
wrote, ``In normal times passenger rail service was important. 
In the `new normal' times it is critical.''
    Since the Federal Government created Amtrak 34 years ago, 
we have invested less than an average of one billion dollars a 
year in rail infrastructure and operations--not nearly enough 
for a world-class system. Germany, which has a modern, high-
speed rail system, invested nine billion dollars in passenger 
rail in 2003 alone. Instead of trying to kill Amtrak, we must 
build a passenger rail system that is as good as any in the 
world.
    Of course, oversight of Amtrak's finances is just one of 
the duties of the Federal Railroad Administrator. The primary 
job is to carry out and enforce the laws relating to rail 
safety, and I hope Mr. Boardman is up to that task.
    I want to thank all of these nominees for being here today 
to share their views and ideas with us, and I look forward to 
working with them throughout the confirmation process.
    Thank you, Mr. Chairman.

    Senator Lautenberg. Just in a short word, Mr. Chairman, we 
are fortunate to have the kind of candidates for these lofty 
positions that we do have. And I think fair to say that Amtrak 
and passenger rail service is a primary concern of mine, not 
the only one. But I am worried, Mr. Boardman, what might happen 
if Amtrak, for instance, stopped running the Empire service 
from New York City to Niagara Falls or the Adirondack trains 
from New York City to Montreal.
    Now, would--the city of New York--you have experience 
there--be prepared to pick up the costs to continue those 
operations?
    Mr. Boardman. Let me answer, Senator, if I could, we right 
now financially support the Adirondack service that goes into 
Montreal. And we have increased that support substantially, 
almost four times, in just the last few years. So there is 
strong support for passenger transportation. The Empire service 
was created under the original Amtrak in 1971. Which means that 
the State of New York is not required to actually support that 
service at this time.
    However, New York provides over $1,400,000,000 a year to 
support public transportation, including New York City, and has 
a long history of doing so. That said, I do not think any state 
or any organization today will voluntarily step up and add more 
dollars unless called upon. And I think that what is important 
to understand in New York, and we have been trying to do that, 
is that it is critical that we have intercity passenger 
transportation on the Empire corridor, on the Adirondack 
corridor to Montreal, and on the Northeast corridor. We are 
financially committed, on the state level, to ensuring that 
service.
    Senator Lautenberg. Yes, but Mr. Boardman, you are aware of 
the fact that the recommendation by the President would abolish 
much, if not all, of Amtrak's services. And I asked you the 
question deliberately about the service on the two lines we 
were just discussing. Is New York State--and you said that, you 
know, you said that no state is going to step up voluntarily to 
do it. The question is: With your unique experience in New York 
State and in railroading for such a long time, transportation, 
will New York State be able to fully take over the 
responsibility of running the railroad from New York City on 
north in these two lines?
    Mr. Boardman. I do not know whether they will fully take 
over that responsibility, but they will be committed to 
supporting intercity passenger rail.
    Senator Lautenberg. Well, is supporting with the money 
included or supporting it in a philosophical kind of thing? 
Because what we are looking at is a question of whether or not 
we have the resources to continue to provide this intercity 
passenger rail service.
    Mr. Boardman. No, support in the sense of money support.
    Senator Lautenberg. So New York State, it is in your belief 
that New York State would step up and provide all of the 
services that are presently there on their own, without 
assistance from Amtrak.
    Mr. Boardman. I would not say it that way.
    Senator Lautenberg. I know you would not, but I want you 
to.
    [Laughter.]
    Mr. Boardman. I know you do. I can use the rocket----
    Senator Lautenberg. We are going to get along fine, no 
matter----
    Mr. Boardman. I can use the rocket scientist line again 
here, but----
    Senator Lautenberg. No.
    Mr. Boardman. I understand.
    Senator Lautenberg. You might be able to run all kinds of 
things, but without the appropriate amount of fuel and 
resource, it cannot happen. Now as Chairman of AASHTO's 
Standing Committee on Rail Transportation, you are responsible 
for the report that stressed the primary role of the Federal 
Government to ensure adequate funding for passenger rail. Now, 
we have a zero proposal, a proposal of zero level for funding 
on passenger rail in this Fiscal Year 2006 budget. If 
confirmed, how do you square your position that AASHTO with the 
administration's view?
    Mr. Boardman. If confirmed, I believe we have to work in 
collaboration. And there will not be zero. If we can reform and 
make the changes necessary to support rail transportation, that 
will not occur.
    Senator Lautenberg. So you include reform as a condition 
for funding. Now, we do not have time to discuss this. We 
will--you and I will discuss it personally, privately. But when 
you throw in a condition like that, when there has been so much 
cost reduction, personnel reduction and so forth. Mr. Gunn has 
led a very successful attempt to reduce the costs there.
    Now, that constitutes a manner of reform. But we have never 
provided the capital to Amtrak that is required. If we spent $1 
billion a year on average, it was a lot. In Germany, they spent 
$9 billion in 1 year. And if you see the product that they 
have, it is not just money, it is will also.
    How do you ensure that the freight railroads, for instance, 
will give reasonable scheduling priority so that the freight 
delays will not hamper passenger service, which often occurs? 
Do you have a view on that?
    Mr. Boardman. Well, I think that the freight railroads have 
been supportive and have to be supportive and have to be 
supportive of passenger rail under the law at this point in 
time. I think that this Congress has been helpful to the 
freight industry with the 4.3 cent tax that it gave back to the 
freight industry. I think that we need to expect that the 
freight industry is going to support what we need as public 
policy.
    Senator Lautenberg. So might we suggest that the same thing 
should be done with Amtrak, to give them the kind of support 
that they need? If it was a significant assist for the freight 
service, then why should we not try to duplicate that for 
passenger rail service?
    Mr. Boardman. I can understand and I think in 
collaboration, we will.
    Senator Lautenberg. Thanks, Mr. Chairman. Thanks for the 
courtesy, Senator Inouye.
    The Chairman. I am informed that we are now on the defense 
supplemental, and Senator Inouye and I may be called. We will 
continue the hearing, though. If we do, I hope the others will 
stay here. We have not been called yet.
    Let me ask a couple questions right now.
    Dr. Griffin, NASA currently takes a series of photographs 
from space to deal with the training of pilots, particularly in 
order to get through some of the mountain passes in our state. 
Until recently, one out of 11 pilots in Alaska died in plane 
crashes. And we have established what we call a Five Star 
Medallion Safety Program. We would like to have you come up and 
take a look at that and see what you might do to further the 
goal of reducing that death rate. Are you willing to come up to 
do that?
    Dr. Griffin. Sir, as a general aviation flight instructor 
and pilot, if confirmed, I would absolutely love the 
opportunity to come up and see that.
    The Chairman. Thank you very much.
    Now, Mr. Boardman, we had a substantial conversation 
yesterday. And I appreciate your courtesy in discussing with me 
some of the problems of the railroads. But I understand, and I 
do not want to embarrass Mrs. Boardman, but I understand that 
when you asked for her hand, you asked not only for a marriage 
but also for her to go to Alaska to homestead. And she accepted 
one and refused the other.
    [Laughter.]
    The Chairman. Obviously it is time now, I think, perhaps 
you should take a trip to Alaska and bring Mrs. Boardman, so 
she can see what she missed, when you come to inspect the 
Alaska Railroad. Are you willing to make such a trip?
    Mrs. Boardman. For thirty years.
    [Laughter.]
    The Chairman. The answer is yes, now, thank you.
    [Laughter.]
    The Chairman. Thank you very much.
    Mr. Boardman. Whether I am confirmed or not, it seems.
    [Laughter.]
    The Chairman. Well, I would like to accelerate your 
confirmation, too, but I do not think we have the ability to do 
so, because we can only do this on an emergency basis.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman. Mr. Chairman, in 
the interest of time, I am going to be brief, because our 
nominee for NASA is obviously the right person at the right 
time of leadership. I am going to submit, with your permission, 
a number of detailed questions that I would like to have for 
the record, as we, well, as Dr. Griffin leads this agency out 
of the wilderness. It has been wandering in the wilderness for 
a period of years. And it needs the strong leadership that I 
think that he is going to offer.
    I want to, if I may, just take a couple of moments here to 
have you state for the record what we have already talked about 
in private--which I find your views compelling--on such as 
using your ability in your new position to enable NASA to 
improve its decision-making process on, example, accepting 
certain risks before we return to flight. Would you comment for 
the record on that?
    Dr. Griffin. Yes, sir. Obviously, if confirmed, the very 
first issue on the plate, superceding all others, is to look 
into the return to flight work which has gone on in the more 
than 2 years since we lost Columbia, to understand it, to 
understand who has done it, what has been done, to understand 
what the areas of concerns still are. I have been in the 
unfortunate position of having chaired accident boards, 
fortunately that did not involve people. But when a lot of 
money is at stake, one equally well takes such things 
seriously. And I am very aware that accident boards make 
recommendations that seem good to them at the time, but which 
may not in all cases be capable of implementation.
    We will, of course, face that same thing with the return to 
flight. And in fact, those who pay attention to the space media 
note that there is a certain amount of contentiousness ongoing 
right now as to exactly what state of completion our Shuttle 
return to flight exercise can reach before we decide to go and 
accept the risk remaining.
    So nothing will be more important to me than looking into 
all that. Also, as the Columbia Accident Investigation Board so 
thoroughly elucidated, one of the things we want to make sure 
is that we hear from all parties, that there is no information 
that needs to reach the top that fails to reach the top. And 
that will be a huge priority.
    Senator Nelson. And I confirm your concern as a leader, 
that I have often felt that the last two tragedies that we have 
had in NASA, first Challenger and then Columbia, although 
destruction for different technical reasons, really, it was a 
common theme. And that is that the top level management was not 
listening to the engineers on the line. And that was in fact 
the case with Challenger in 1986 and again with Columbia. So I 
thank you for that.
    Share with the Committee your concern about the potential 
hiatus where we would be without an American vehicle for human 
access to space perhaps in a situation for years relying upon 
the Russians and where the geopolitics would take us in those 
years, that suddenly Russia might not be a reliable person, a 
reliable partner, for access to space, for human access to 
space. Share your thoughts about that hiatus between the 
schedule of 2010, shutting down the Shuttle, and several years 
later possibly before we would have the crew exploration 
vehicle ready to go.
    Dr. Griffin. Thank you, Senator. As a matter of fact, my 
second priority, if confirmed, would be to address exactly the 
gap to which you refer. Because I think this is an area that 
means a lot to me. As a matter of what it takes to be a great 
Nation in the 21st century, I do not believe that we would wish 
to see a situation where the United States is dependent upon 
any partner, reliable or unreliable, at any time, for human 
access to space or, for that matter, any access to space.
    We need our own capabilities. Two Nations have now put 
people into space since the United States has last done so. I 
do not like that. The program that NASA has outlined so far 
features a new crew exploration vehicle. We can call it what we 
will. And it nominally comes on line in 2014. I think that is 
too far out. President Bush said not later than 2014. He did 
not say we could not be smart and do it early. And that would 
be my goal.
    I would call the Committee's attention to the fact that 
when the United States developed its Gemini spacecraft, it did 
so from contract award to first flight in a period of something 
like 38, 39 months, a little over 3 years. Even the Apollo 
spacecraft, a much more challenging development, whose 
development was in fact interrupted by a fatal fire that killed 
three astronauts, even the Apollo spacecraft was brought from 
contract award to fruition in no more than 6 years.
    It seems unacceptable to me that it should take from 2005 
to 2014 to do the same thing when we already know how.
    The Chairman. Your time has expired. I am sorry.
    Senator Nelson. Mr. Chairman, I would only ask at some 
point in the nominee's testimony, if he might share his vision 
for the future of NASA, because I think we will hear a 
refreshing statement.
    The Chairman. Thank you very much.
    It is my understanding that the Senator's questions as 
submitted for the record would not be intended to hold up the 
confirmation process.
    Senator Nelson. Oh, absolutely not. Absolutely not.
    The Chairman. Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman. Mr. Chairman, I 
have been trying to work on the priorities of the Subcommittee. 
And one of the priorities was the question that was just asked 
by Senator Nelson. It has, as I have discussed with Dr. 
Griffin, been of great concern to me that we would have a 5-
year hiatus on the books in which we would be able to put our 
own people in space. And I appreciate that that is also a 
concern of yours.
    I think it is, in addition to a potential problem in 
stopping the science that is done at the Shuttle, I mean at the 
Space Station, I think it is a security issue for our country 
when we are seeing, as you pointed out, other countries going 
into space.
    So I will be looking. And we will be holding hearings. And 
certainly when I am able to hold our Subcommittee hearings, I 
will have you back, and we will be able to discuss these things 
more fully. But of the priorities that I have after return to 
flight, the 5-year hiatus is the biggest. We have a commitment 
to international partners in the Space Station. You said 
something in your opening statement that you support the Space 
Station, but we have to make sure that putting people in space 
is for a mission worthy of the risk.
    And I agree with you, of course, that going to Mars should 
be the next vision. But I want to make sure that we also have 
the commitment to our international partners to finish the 
Space Station and that we look for the ways to enhance the 
science so that it is worthy of the efforts that we are making, 
both in the medical research, which we are now doing, and 
potentially with geophysical research, from what we might get 
on the moon and then maybe into the long-term future, Mars.
    And I just wanted to ask you if you are committed to 
finishing the Space Station and if you have other ideas about 
the kinds of science that we can do that would be worthy of the 
risk of manned space flight.
    Dr. Griffin. Yes, Senator. Let me assure you first that 
your priority to, as I just said in response to Senator 
Nelson's question, your priority to reduce any gap in access to 
space by our Nation after the Shuttle retirement is also my 
priority. We are of like mind. It remains to find ways and 
means. But we are of like mind on that.
    With regard to the International Space Station, yes, the 
President is pledged, and I, as his nominee, am pledged, if 
confirmed, to bring the International Space Station to a level 
of completion consistent with our obligations to our 
international partners. The faith and credence of the United 
States in meeting its obligations means something to me. It 
means quite a lot to me. We have undergone a trauma in our 
space program, as you know all too well. We are still 
recovering from that and there has been damage to the program, 
and there have been delays to the program. But we are committed 
to meeting our obligations to our partners.
    With regard to the science that can be done on the Station, 
as I know that you are aware, it consists, of course, first and 
foremost, life science research in connection with the effect 
of zero gravity on the human body in preparation for longer 
voyages. It also serves, or can serve, as a test bed for 
engineering development hardware before that hardware is 
subjected to long journeys far from home. It can possibly 
serve, as you indicated, in observation or other type of 
scientific platform.
    You know, the utilization of it remains yet to be fully 
fleshed out. But certainly having built it, it would be my 
commitment to use it for whatever makes sense to use.
    Senator Hutchison. So you can foresee that there could be 
equipment testing, as perhaps we go back and forth to the moon, 
that could--I mean, to--I am sorry, to the moon that could also 
eventually help us in knowing what it would take to go to Mars?
    Dr. Griffin. I have often thought that the most valuable 
application of any space station would be simply a place to 
check out hardware that is in nascent stages of development, 
not fully understood. It provides a lot more opportunity for 
interaction with that hardware than aerospace engineers usually 
get. Most of the time we design it, we build it, we launch it, 
and we hope we did it right.
    Senator Hutchison. Thank you.
    With my last minute I would like to just ask a question to 
Mr. Boardman. Senator Dorgan and I have just introduced 
legislation. And I was very pleased to work on this with him 
because of a situation that happened in San Antonio, Texas, 
last year where--and it just--it happens in other parts of the 
country as well. It just happened that we had a huge wreck and 
it was going through a major metropolitan area. And we know 
that hazardous materials carriage going through metropolitan 
areas is an issue that affects many communities.
    Our bill would require railroads to improve inspections of 
welded track, develop tank car safety standards, and ask, or 
actually direct, the FRA to do a relevant rulemaking. And I 
just wanted to ask you if you are familiar with this issue and 
if you are committed to better inspection capabilities by the 
railroads and better oversight from the FRA and also the issue 
of tank car integrity.
    Mr. Boardman. Senator, I am familiar with at least part of 
the issue. And I will, if confirmed, pay attention to the 
HAZMAT issue, not only in terms of the technical 
characteristics of the cars, but also in some of the balance of 
how we are going to notify and operate those cars.
    Senator Hutchison. And working with the communities 
involved.
    Mr. Boardman. Absolutely.
    The Chairman. Thank you, Senator.
    Senator Hutchison. Thank you.
    The Chairman. Senators, I have urged the staff to notify 
absent Senators, but we will meet in the President's room right 
after the next vote or at 2:15 today, whichever occurs first, 
on the nomination.
    I now recognize Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    My time is short here so, Mr. Griffin, I would like to 
focus some questions with you first. Something that has been in 
the news recently is the Hubble Spacecraft, or the Hubble 
Telescope. And I am hearing, I guess, conflicting reports, or 
maybe I do not understand exactly what is going on. I think 
that some are saying we should just pretty much abandon it and 
let it die, and others are saying no, we can send up some sort 
of robotic spacecraft and get it, you know, reworked for a 
longer life.
    Tell me the status of that and tell me the value of the 
Hubble Telescope, if you can.
    Dr. Griffin. Let me comment on the second issue first, the 
value of the Hubble. I guess the shortest way in which I could 
express it is that the Hubble almost by itself is the 
instrument which allowed us, as a race of people, but our 
scientists in particular, to understand that it is quite 
literally true that we know nothing about 95 percent of the 
known universe. Seventy-five percent of it is dark energy, 20 
percent of it is so-called dark matter, and the remaining 5 
percent is what we can see.
    That is an understanding so profound as to rival with 
Einstein's development of the theories of relativity and so 
forth. So it has been an extraordinarily valuable instrument.
    Senator Pryor. And is it your opinion that it would have 
value in the future?
    Dr. Griffin. If it were working right, of course it would 
continue to have value in the future. Yes, sir, and the issue 
remains as to what we do. To answer now your first question 
second, sir----
    Senator Pryor. Right.
    Dr Griffin.--the ability to deal with it. A robotic mission 
has been studied. Actually, until I was nominated by the 
President to be his choice for Administrator, I was the 
independent chair of the Robotic Servicing Mission design 
review committee. As you know and as was in the news very 
recently, that committee, now without me as its head, that 
committee has concluded that the Robotic Servicing Mission is 
not feasible within reasonable amounts, for reasonable amounts 
of money, and within the time we have available before the 
Hubble wears out, if you will.
    So I would like to take the robotic mission off the plate. 
I believe that is a correct assessment and so I believe that 
the choice comes down to reinstating a Shuttle servicing 
mission or possibly a very simple robotic deorbiting mission. 
The decision not to execute the Shuttle, the planned Shuttle 
servicing mission, was made in the immediate aftermath of the 
loss of Columbia. When we return to flight, it will be with 
essentially a new vehicle which will have a new risk analysis 
associated with it and so on and so forth.
    At that time, I think we should reassess the earlier 
decision and in light of what we learn after we return to 
flight, we should revisit the earlier decision.
    Senator Pryor. OK.
    Dr. Griffin. Did I answer responsively? I mean, I was 
rather long-winded and I am sorry.
    Senator Pryor. Yes. That is good. Now let me ask you about 
NASA as an agency. I know there has been some financial 
management issues there. In fact, as I understand it, NASA's 
auditors have not been able to conduct an audit for three of 
the last 4 years. And there may not be a clean audit in FY05. 
Is that your understanding?
    Dr. Griffin. Yes, sir, that is my understanding.
    Senator Pryor. And what is the cause of that? And why is 
that happening in this Agency? And understandably, Congress has 
a lot of concerns about that. And, you know, frankly, you need 
to get your fiscal house in order. But tell me the cause of 
that and what you plan on doing to fix it.
    Dr. Griffin. Sir, I in no way have the appropriate 
knowledge at this time to comment on the cause. So I will have 
to--and if confirmed, I absolutely look forward to getting back 
to you to explain what we have found when we know. But right 
now, I do not know.
    Senator Pryor. I think that has got to be one of your top 
priorities, though.
    Dr. Griffin. It is. It absolutely is. I have, as was 
pointed out in my introduction, I have been at NASA. I have 
been a contractor to NASA. When I was in the Defense 
Department, I have been a customer for NASA. Since I have been 
a contractor, I have been held to demanding accounting 
standards for how we spent our money, as should be the case. It 
is not acceptable for NASA to do less well in accounting for 
its expenditures to the Congress.
    I am given to understand that there is an excellent Chief 
Financial Officer in charge at NASA. I just met her this 
morning. I am also given to understand that it may well be true 
that she has not received all of the resources necessary to 
accomplish her job. I plan to meet with her literally on my 
first day and understand what she needs to accomplish her task 
and to see to it that she can do that. It is unacceptable that 
we cannot pass an impartial audit and account to you for how we 
have expended our funds.
    Senator Pryor. Yes. I agree with that. And I am glad you 
are going to make that such a high priority.
    And the last question I wanted to ask is not so much about 
space flight or even agency but science and education. And you 
have the EPSCoR program. Are you familiar with EPSCoR?
    Dr. Griffin. I am not, sir.
    Senator Pryor. Experimental Program to Stimulate 
Competitive Research.
    Dr. Griffin. I am not familiar with it, I am sorry to say.
    Senator Pryor. OK. Well, I tell you what, I will just write 
out a question for you for the record, and not to hold up the 
confirmation, but I would like your thoughts on that.
    Thank you.
    Dr. Griffin. I would welcome the opportunity.
    The Chairman. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    I am going to focus my comments to you, Dr. Griffin. And it 
has to do with the NASA budget. I intend to support you. But 
let me tell you, every time you come before this Committee, I 
am going to voice concern about the Aeronautics Industry. I am 
a competitive person. I think everyone in this Committee, 
whether they are from Alaska or from Virginia or from Texas or 
from anywhere else, are concerned about the aeronautics funding 
because air travel affects us all.
    One of the great strengths in the 20th century, of America 
and its leadership, was in aeronautics. We have fallen behind. 
For the first time ever, going from 90 percent of the 
commercial aviation market in the 1940s, we for the first time 
have come in second last year, down to 45 percent of global 
sales.
    I have looked at the funding for the aeronautics aspect of 
NASA. In the previous administration, research and development 
was cut in half. This current administration and this proposed 
budget proposes another cut in half, which is forcing some of 
our research centers to lay off capable, uniquely skilled 
individuals, who are not readily found in the market.
    Moreover, there is a concern about young people in 
engineering, particularly aeronautical engineering. This 
certainly does not send a positive message, if we care to be a 
leader in aeronautics, which I think is important for our 
security and for prosperity in this country.
    When one looks at all the developments and the improvements 
in aviation over the years, many of those, whether it is 
civilian or for military aircraft, came from the R&D, the high-
risk research that was done at our research centers, NASA 
research centers, around the country.
    Now I understand that you have yet to be confirmed as 
Administrator, but I would like for you to explain to me and to 
our Committee the rationale behind the dramatic cuts in the new 
vehicle systems program, which is conducting research on the 
feasibility of hypersonic flight. Hypersonic flight is that of 
the speed above Mach 5. They are also researching the 
development of zero emissions aircraft.
    Could you share with me and our Committee the rationale for 
these further drastic cuts in aeronautics and, moreover, why 
the cuts in the new vehicle systems?
    Dr. Griffin. Senator Allen, I cannot share that rationale 
with you, because I do not know it. If confirmed, I will take 
it as an action to study that, those issues, and to get back to 
you, to work with you and your staff in explaining our 
rationale. But as of today, I do not have it.
    I share your view as to the cruciality of aeronautics 
research. Like you, I am a competitive person and also find it 
more than somewhat worrisome that last year we were below 50 
percent of the market share, having once had 90 percent. We 
also have a statement on the record in the European Union that 
the goal of Airbus is to dominate the world market in air 
transport. I think that the United States should be worried 
about that. And I am.
    But with respect to your question today, with what I know 
at this moment, I cannot answer.
    Senator Allen. Well, in the event that we are going to 
address the concerted plan, which they are effectuating in 
Europe to dominate by the year 2020, and they are investing a 
great deal, billions of dollars, in research and development, 
and producing quality aircraft, do you see cutting research and 
development for new vehicle systems in aeronautics as a way of 
addressing that competitive challenge that we are facing, which 
is important, again, for our military, for civilian aircraft 
and it actually is also good for our balance of trade. And most 
of our balance of trade is not very good these days.
    So do you see cutting research and development by half 
again, so it is about one-quarter of what it was 10 years ago, 
do you see that as a logical, rational way of handling this or 
addressing it?
    Dr. Griffin. Well, sir, as I do not have to explain to you, 
I am the President's nominee and I support the President's 
program. However, the President understands that the 
determination of the budget in the final analysis is an 
iterative process. I look forward to working with you and your 
staff on those iterations to arrive at an approach which is 
acceptable to all parties.
    Senator Allen. Well, I look forward to working with you. 
Understand, in our private conversation we discussed this as 
well, how important I feel this is for the future of our 
country. I feel that we ought to be concerned that, for 
example, the most advanced fighter must be tested overseas in 
wind tunnels in Europe, because our own country has failed to 
invest in our own wind tunnels.
    And so it is my view that--I know there are a lot of 
priorities and we do need to be in the lead in space, but we 
also need to be paying attention to the very practical, 
beneficial aspects of research and development here in this 
country, working with the private sector, working with defense, 
in aeronautics. And I just cannot countenance seeing the 
atrophying of a very capable skilled work force plus the 
encouragement for the future with these, I think, penny-wise-
and-pound-foolish proposals.
    And so as the legislative branch disposes of proposals--and 
I know that. And as a Governor, I appreciate agency heads who 
follow the executive. However, I am glad you understand the 
legislative process. And I hope to work with my colleagues to 
improve the aeronautics funding, particularly for the new 
vehicle system, which is important for the future.
    Thank you, Mr. Chairman.
    The Chairman. Senator, I will be happy to discuss with you 
sometime the availability of money for that research and the 
redundancy of the current research.
    Senator Inouye?
    Senator Inouye. Mr. Chairman, I will be submitting my 
questions. But I would like to ask Dr. Griffin to do his very 
best to keep Hubble alive.
    And to Mr. Boardman, as you may know or may not know, we in 
Hawaii have one narrow-gauge railroad. It is about two miles 
long. So we are not quite ready for Amtrak. But I will be 
supporting you.
    Mr. Boardman. Thank you, Senator.
    Dr. Griffin. Thank you, Senator.
    The Chairman. Thank you very much. In other words, you do 
not have an excuse to go to Hawaii.
    [Laughter.]
    Mr. Boardman. We will make one up.
    [Laughter.]
    The Chairman. Thank you very much, gentlemen. And I hope 
you will respond to the questions that we may submit to you.
    And Dr. Griffin, we look forward to contacting you later.
    Mr. Boardman, we will determine how quickly we can get your 
nomination out. We will have a hearing markup tomorrow--no, 
Thursday, Thursday. And we will do our best to have it ready 
for that time.
    I will now turn to the next panel. Thank you very much, 
gentlemen.
    Dr. Griffin. Thank you, Mr. Chairman.
    The Chairman. Thanks to your family.
    Mr. Boardman. Thank you, Mr. Chairman, Committee.
    The Chairman. We will take a 2-minute break.
    [Recess.]
    The Chairman. I would ask Ms. Nancy Nord and Mr. William 
Cobey to come to the table, please.
    [Pause.]
    The Chairman. Senator Hutchison.
    Senator Hutchison. Mr. Chairman, I have been called to 
respond to an amendment by Senator Cochran, but I did want to 
say that I have known Nancy Nord for longer than I even want to 
say, at least 30 years. And she is the most qualified person 
for this position. I know she will do a wonderful job.
    And I hope that our Committee will expedite her approval, 
as well. Thank you.
    The Chairman. Thank you very much.
    [Pause.]
    The Chairman. Please close the doors.
    [Pause.]
    The Chairman. Ms. Nancy Nord has been nominated to be 
Commissioner of Consumer Products Safety Commission. The 
Honorable William Cobey is nominated to be a member of the 
board of directors of the Metropolitan Washington Airports 
Authority. Let me ask you if you have family with you today 
that you wish to introduce for the record, either of you?
    Mr. Cobey. No, sir.
    Ms. Nord. No, sir.
    The Chairman. Senator Inouye and I are pleased to be able 
to consider the nomination. Do you have any opening statement 
to make on these nominees?
    Senator Inouye. Fine candidates.
    The Chairman. And my opening statement, which I placed in 
the record, I identified your backgrounds, each of you. And we 
understand that Senator Thune and Senator Johnson support Ms. 
Nord's nomination. Senator Dole and Senator Burr support Mr. 
Cobey. And their statements will be placed in the record.
    The Chairman. We are pleased to consider your nomination.
    Ms. Nord, do you have a statement that you would like to 
make?

    STATEMENT OF NANCY A. NORD, NOMINEE TO BE COMMISSIONER, 
               CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Nord. Yes, sir. Although I do not have family with me 
this morning, I would like to acknowledge Commissioner Thomas 
Moore, who will be my colleague on the CPSC, if confirmed. 
Commissioner Moore is well known to this Committee. And I 
wanted to acknowledge his presence.
    The Chairman. Thank you. We are pleased to have you here, 
Commissioner.
    Ms. Nord. Thank you. The biographical information I 
submitted to the Committee for the record outlines my personal 
and professional background. This morning I wanted to just 
briefly tell you why I would like to be on the Consumer Product 
Safety Commission and give you a sense of the things I would 
like to accomplish, if confirmed.
    I am eager to be a CPSC Commissioner for several reasons. 
First of all, I strongly believe in the mission of the agency. 
American consumers have every right to expect that the products 
that they purchase will be safe and will not pose an 
unreasonable risk of injury to themselves or their families.
    Second, I am pleased to have been chosen for this position, 
because I have a long interest in the activities of the agency. 
As a young lawyer right out of law school, one of the very 
first issues I worked on was the legislation creating the 
Consumer Product Safety Commission. Later, as a Hill staffer, I 
worked on consumer protection matters, including oversight and 
authorization legislation for the agency.
    In the 30 years since it was established, the agency has 
built up an impressive record of accomplishments. And I am 
eager to do what I can to push forward the mission of the 
agency.
    With respect to priorities, the Commission has a special 
responsibility to vulnerable population groups such as the 
elderly and especially children. While the Commission has made 
significant strides with respect to the safety of toys and 
other children's products, there is always more to be done. 
This is an area of special concern to me and if confirmed, is 
an area where I will give strong emphasis.
    On a related matter, it is critical that once a product --
unsafe product--has been recalled, that we assure ourselves 
that the product is really out of consumers' hands. We should 
continue to explore a variety of ways to track and measure 
product recall effectiveness, including the use of new 
technologies.
    While I believe that American manufacturers generally have 
an excellent record in producing safe products, I also 
recognize that many products on our store shelves are 
manufactured overseas. Under the leadership of Chairman 
Stratton, the Commission has begun work with safety officials 
in other countries to harmonize safety regulations and to 
assure that products manufactured outside the U.S. meet our 
high standards. I look forward to supporting this important 
work that the Commission has begun.
    Before I close, I want to mention to you the importance 
that I place on open communication. If confirmed, I am 
committed to establishing an open communication process to 
assure that I have the benefit of rigorous debate and all 
points of view before reaching a decision. Consumer groups, 
business entities, the standard-setting bodies can be assured 
that I strongly believe in an open-door policy and will be 
proactively looking for their input on issues before the 
Commission.
    Serving as a CPSC Commissioner is a high honor and a 
tremendous responsibility. If confirmed, I commit that I will 
undertake this responsibility with integrity, enthusiasm, and 
full dedication. Thank you, sir.
    The Chairman. Thank you very much, Ms. Nord.
    [The prepared statement and biographical information of Ms. 
Nord follow:]

   Prepared Statement of Nancy A. Nord, Nominee to be Commissioner, 
                   Consumer Product Safety Commission
    Mr. Chairman and Members of the Committee, it is an honor to appear 
before you today as the President's nominee to be a Member of the 
Consumer Product Safety Commission (``CPSC''). I welcome the 
opportunity to talk with you about the Commission and to answer any 
questions you may have.
    To give you an overview of my background, I was born and raised in 
Sioux Falls, South Dakota, where most of my family still lives. I 
graduated from the University of Nebraska and then attended George 
Washington University Law School at night, while working during the day 
as a Senate staffer. Twenty-one years ago, I married James S. Halpern, 
a Judge on the United States Tax Court. We have an 18 year old 
daughter, who is a freshman in college.
    My professional background includes service as counsel to the House 
Commerce Committee (where I handled consumer protection issues, 
including those relating to the CPSC), general counsel to the 
President's Council Of Environmental Quality, private law practice, 
starting and leading a professional association, and managing the 
Federal Government relations function of a large consumer products 
company.
    I have long had an interest in the activities of the CPSC. One of 
the first issues I worked on as a young lawyer, thirty years ago, was 
the original legislation establishing the Commission. As a hill 
staffer, I worked on authorizing legislation and oversight of the 
agency. I believe that the mission of the agency is of vital importance 
to the lives of every person in this country and I am committed to 
working aggressively to assure that the Commission carries out its 
statutory mission.
    From my experience in both the public and private sectors, I firmly 
believe it is critical that the agency involve in its deliberations all 
stakeholders, including private industry, consumer groups, state public 
health and law enforcement officials, and other federal agencies. If 
confirmed, I am committed to establishing an open communications 
process to assure that I have the benefit of vigorous debate and all 
points of view before reaching a decision on an issue. I also 
understand that Congress, and especially this Committee, is vitally 
interested in the Commission's activities. If confirmed, I will assure 
that there continues to be open and full communication with you and 
your staff, and that the agency is fully responsive to any questions or 
issues you may have.
    The activities of the agency break down into three main areas, (1) 
identifying products that present unreasonable risks and developing 
uniform safety standards to protect against those risks, (2) educating 
consumers about the relative safety of consumer products and about 
compliance actions taken by the Commission, and (3) a law enforcement 
function, which assures compliance with the statute. I would like to 
outline my priorities with respect to each of these activities.
    With respect to the standards setting process, the Consumer Product 
Safety Act is unique in its direction to the Commission to work with 
interested parties to develop voluntary safety standards if such 
standards would be adequate to address a particular risk. The voluntary 
standards mechanism that Congress built into the Act assures that the 
standards-setting process is a collaborative one involving all 
stakeholders. It gives incentive to manufacturers to design for safety. 
The commission should encourage product manufacturers, working 
cooperatively with consumer and standard setting groups in appropriate 
situations, to design safety into products so that regulatory action by 
the commission is a rare occurrence.
    With respect to consumer education and outreach, I believe that 
much needs to be done to alert consumers about potential safety issues. 
In addition, we need to continue developing more imaginative ways to 
get unsafe products out of the hands of consumers. However, this is not 
something the agency can do alone. it is vital that the agency work 
closely with the states' attorneys general, state and local public 
health officials, educators, and community organizations, especially 
those serving consumers who are less fortunate economically and 
consumers who do not speak English as their first language, to assure 
that those closest to the people have information about safety issues 
and product risks.
    With respect to the agency's law enforcement function, I am 
committed to vigorously enforcing the law: Those who do not comply with 
the statute should be punished. As our world gets smaller and 
manufacturing becomes global in scale, it is important that we assure 
consumers that consumer products coming into this country are safe and 
meet U.S. safety standards. Counterfeit products pose a special 
problem. Not only do counterfeit products impose unfair competitive 
burdens on American manufacturers, but they also can pose real safety 
hazards for American consumers.
    Finally, the Commission has a special obligation to protect 
vulnerable population groups, especially the elderly and the young. You 
have my full assurance that I will work tirelessly to assure that 
consumer products posing unreasonable risks to children and the elderly 
are dealt with quickly and efficiently.
    Serving as a CPSC Commissioner is a serious responsibility and a 
tremendous opportunity to work with a talented and dedicated staff. If 
confirmed, I commit to you that I will undertake the job of 
Commissioner with enthusiasm and integrity.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Nancy Ann 
Nord.
    2. Position to which nominated: Commissioner, Consumer Product 
Safety Commission.
    3. Date of Nomination: February 28, 2005.
    4. Address (List current place of residence and office addresses): 
information not released to the public.
    5. Date and Place of Birth: September 14, 1946; Sioux Falls, SD.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    James S. Halpern, Judge, United States Tax Court, Washington, DC 
(spouse); Hilary Ann Halpern, 18 (daughter).
    7. List all college and graduate degrees. Provide year and school 
attended.
    JD--George Washington University National College of Law, 1971; 
BA--University of Nebraska, 1968.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Director of Federal Government Relations, Eastman Kodak 
        Company;
        Of Counsel, Verner, Liipfert, Bernhardt, McPherson and Hand Law 
        Firm;
        Counsel, Jellinek, Schwartz & Connolly;
        Executive Director, American Corporate Counsel Association;
        General Counsel, Counsel on Environmental Quality, Executive 
        Office of the President;
        Counsel, Commerce Committee, U.S. House of Representatives;
        Director of Consumer Affairs, U.S. Chamber of Commerce;
        Attorney-Advisor, Federal Communications Commission.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years: Advisory 
Neighborhood Commissioner, Washington, DC.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: Better 
Business Bureau Online, Board Member.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        District of Columbia Republican Committee, 1995-present, 
        general counsel, treasurer, executive committee member;

        Republican National Lawyers Association, 1985-present, board of 
        governors, executive director, president;

        American Corporate Counsel Association, 1999-2003;

        District of Columbia Bar Association (retired member);

        Big Sisters of Metropolitan Washington, 1996, Board of 
        Directors;

        Temple Micah Jewish Congregation, 2001-present;

        Bethesda Jewish Congregation, 1995-2001.

    To my knowledge, none of these organizations restricts its 
membership on the basis listed in the question.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt.
    In 2002 and in 2004, I was a candidate for and was elected to be an 
Advisory Neighborhood Commissioner in Washington, DC. No debt was 
incurred.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        District of Columbia Republican Committee, 2005, $500;
        DC Republican Committee, 2004, $550;
        DC Republican Committee, 2002, $500;
        DC Republican Committee, 2000, $500;
        Bush-Cheney 2004 (Primary) Inc, 2003, $2000;
        Bush for President, 1999, $1000;
        Elizabeth Dole for President Exploratory Committee, 1999, 
        $1000;
        KPAC, 2001, $500.
        In addition, from 1997 through 2003, I was a regular 
        contributor to the Eastman Kodak Employees Political Action 
        Committee in varying annual amounts between $500 and $800.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: N/A
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Sentencing Guidelines Up the Ante for Corporate Compliance 
        Programs'', ACCA Docket, Fall, 1991;

        ``The New Lobbying Disclosure Act: What You Need to Know to 
        Comply'', ACCA Docket, Summer, 1996.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: N/A
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    Under the terms of my deferred compensation agreement with Eastman 
Kodak Company, I will receive deferred compensation payments in 2005 
and 2006. In addition, I hold a small number of Eastman Kodak stock 
options.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: See No. 1 above.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    During the past 5 years, I was an employee of the Eastman Kodak 
Company, which manufactures consumer products regulated by the 
Commission.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During the past 5 years, I served as Director of Federal Government 
Relations for the Eastman Kodak Company. In that capacity, I oversaw 
all the company's legislative activities and was registered as a 
lobbyist for the company.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have signed an Ethics Agreement under which I agree to recuse 
myself from any matter that will effect my personal financial interests 
or that of my family. In addition, I have agreed to recuse myself from 
any matter that may effect the financial interests of Eastman Kodak Co.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.

        I was a defendant in civil litigation involving the 
        construction of a personal residence for my family. The case 
        was settled before trial, in October, 2003.

        In 2004, I participated with the other former Chairs and 
        General Counsels of the Counsel on Environmental Quality in an 
        amicus brief in the U.S. Supreme Court in Norton v. Southern 
        Utah Wilderness Alliance.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: 
N/A.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Do you agree if requested to appear before 
this Committee you will come without a subpoena?
    Ms. Nord. Absolutely, sir.
    The Chairman. All right. Mr. Cobey, we are pleased to have 
your opening statement.

 STATEMENT OF HON. WILLIAM W. COBEY, JR., NOMINEE TO THE BOARD 
    OF DIRECTORS, METROPOLITAN WASHINGTON AIRPORTS AUTHORITY

    Mr. Cobey. Thank you, Mr. Chairman, Senator Inouye. I was 
certainly honored to have my home state Senators, outstanding 
leaders, Senators Dole and Burr, introduce me. And I have 
submitted a statement for the record. I appreciate this 
hearing, consideration of my nomination by the President. And I 
would be glad to answer any questions you might have for me at 
this time.
    [The prepared statement and biographical information of Mr. 
Cobey follow:]

Prepared Statement of Hon. William W. Cobey, Jr., Nominee to the Board 
        of Directors, Metropolitan Washington Airports Authority
    Mr. Chairman and Members of the Committee:
    I am Bill Cobey, the President's nominee to the Metropolitan 
Washington Airports Authority. I would succeed the Honorable John Paul 
Hammerschmidt, who has been closely involved with Washington's two 
airports since the Congress agreed to turn them over to a public 
regional authority in 1986.
    As you can see from the Committee's record, my principal 
qualifications for this appointment are found in my years of 
governmental service. I was introduced to airport politics and policies 
when I had responsibility for the airports in North Carolina as Deputy 
Secretary of the North Carolina Department of Transportation, and later 
as Town Manager of Morrisville, North Carolina which is located 
immediately adjacent to the Raleigh-Durham Airport.
    I have long been involved with the Republican Party in North 
Carolina, and I am proud to have actively supported the election of the 
two outstanding Senators who introduced me this morning. I had the 
honor of representing the good people of the fourth district of North 
Carolina as a Member of the House of Representatives for one term in 
the mid 1980s when the Airports Authority was established under the 
visionary leadership of then Secretary of Transportation Elizabeth 
Dole.
    The Airports Authority customarily invites nominees to attend its 
meetings, and I have already attended a Board meeting and five 
committee meetings. The Board is very active and its members are well 
informed. I very much look forward to working with my colleagues there.
    As you may know, the Metropolitan Washington Airports is a public 
agency created by interstate compact between the Commonwealth of 
Virginia and the District of Columbia solely to operate Ronald Reagan 
Washington National Airport and Washington Dulles International Airport 
under lease from the United States. It is governed by a Board of 13 
Members. Five are appointed by the Governor of Virginia, three by the 
Mayor of the District of Columbia, two by the Governor of Maryland and 
three by the President.
    I am told that the Presidential members are among the most active 
and have the best attendance records. They are also mindful of the 
statutory direction, in the federal Metropolitan Washington Airports 
Act, to ``ensure adequate consideration is given to the national 
interest.'' I can assure the Committee that this record will continue 
if I am confirmed.
    I appreciate your consideration of my nomination. I would be happy 
to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): William W. 
(Bill) Cobey Jr.
    2. Position to which nominated: Member (``Director''), Metropolitan 
Washington Airports Authority.
    3. Date of Nomination: February 28, 2005.
    4. Address (List current place of residence and office addresses): 
information not released to the public.
    5. Date and Place of Birth: May 13, 1939, Washington, DC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Nancy Lee Cobey, Fitness Instructor, Self Employed, spouse; 
Catherine Cobey Culton, 39, daughter; William W. Cobey IV, 32, son.
    7. List all college and graduate degrees. Provide year and school 
attended.
    Emory University, BA, Chemistry, 1962; University of Pennsylvania, 
MBA, Marketing, 1964; University of Pittsburgh, M Ed, Health and 
Physical Education, 1968.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.
    Deputy Secretary, North Carolina Department of Transportation--
State Aviation Program under this position. In a broader sense, my 
experiences as a Member of the U.S. House of Representatives, Secretary 
of the North Carolina Department of Environment, Health and Natural 
Resources; Director of Athletics at the University of North Carolina; 
and Town Manager of Morrisville, North Carolina are also relevant.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years.
    Served on the transition team for new State Auditor of North 
Carolina earlier this year.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.
    Chairman of the Board, Trinity School of Durham and Chapel Hill; 
Member of the Board of the Jesse Helms Center; Senior Consultant, 
Capitol Link; President, Cobey, Inc.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    The Chapel Hill Bible Church, 1978 to the present, deacon and 
elder; The North Carolina Republican Party, Executive Committee since 
1985, Chairman 1999-2003; Republican National Committee 1999-2003; 
National Rifle Association, 2003-2005; current member, Educational 
Foundation at the University of North Carolina at Chapel Hill, have 
been a member off and on since 1976.
    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: Yes.
    My last campaign, which was for Governor of North Carolina, owes me 
$90,000. There are no other debts from this campaign or other 
campaigns.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    Cobey for Governor, $4,000, 2003; North Carolina Republican 
Executive Committee, $1,000, 1999; Richard Burr for U.S. Senate, $500, 
2003; Jo Bonner for Congress, $1,000, 2002.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.
    Order of the Gimgoul and Bell Tower Society at UNC at Chapel Hill; 
Order of the Long Leaf Pine, State of North Carolina; Presidential 
Citation of the North Carolina Association of Local Health Directors; 
Distinguished Service Award, Chapel Hill-Carrboro Jaycees.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    Cobey, Inc. is paid by Capitol Link for my consulting services. 
Capitol Link is a Washington-based Federal Government relations firm 
headed by Mick Staton, a former Member of Congress, specializing in 
municipal and county government matters. I am paid a percentage of the 
fees paid by clients in North Carolina to Capitol Link.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain: Yes, see No. 1.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    My Executive Branch Confidential Financial Disclosure Report 
identifies several financial interests in firms that have contracts 
with the Metropolitan Washington Airports Authority. They are: Dell 
Computer Corp., Motorola Inc., Cisco Systems, Inc., Oracle Corp. and 
Wachovia Corp.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Lobbied Congress and federal agencies for non-profit organization's 
investments in contaminated sites cleanup to be specifically exempted 
from unrelated business income. Contacted state legislators to oppose 
proposed state lottery for North Carolina and to influence the 
redistricting of state senate and house seats. As North Carolina 
Republican Chairman and Candidate for Governor of North Carolina, I 
spoke out on numerous issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will do my best to avoid any conflicts of interest. If I have 
one, consistent with the Airports Authority Code of Ethical 
Responsibilities for Members of the Board of Directors, I will disclose 
my conflict to the Board and not speak to the issue either privately or 
publicly and of course, not vote.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes, to the 
best of my shared authority.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes, to 
the best of my shared authority.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Do you also agree that you will come before 
this Committee if requested, without a subpoena?
    Mr. Cobey. Absolutely.
    The Chairman. Thank you. We appreciate that each of you 
agreed to meet and discuss your nominations before this 
hearing. The questions that we had were satisfied, I believe.
    Senator Inouye.
    Senator Inouye. Thank you, Mr. Chairman. I have just two 
short questions.
    What are your views, Mr. Cobey, on adding a few more long-
distance flights from Reagan?
    Mr. Cobey. Certainly I am open to that, Senator. I 
understand that that has to be--at least my understanding is it 
has to be done in statute at this point in time. But I am 
certainly open to more flights beyond the perimeter.
    Senator Inouye. And to Ms. Nord--thank you very much,
    Mr. Cobey.
    Mr. Cobey. Yes, sir.
    Senator Inouye. Currently the agency has a cap on the 
fines, $7,000 per product with a ceiling of 1.65 million.
    Ms. Nord. Yes, sir.
    Senator Inouye. We have been receiving letters and e-mail 
from other interested parties citing, for example, that on June 
2003 Endovascular Technologies was fined over $92 million in 
civil and criminal penalties by FDA. Consumer groups would like 
to see the caps removed entirely. They argue that low caps are 
no deterrent. And large corporations can factor certain civil 
penalties into their cost of doing business.
    What are your thoughts on raising the cap or eliminating 
the cap?
    Ms. Nord. I am aware, Senator, that the agency recently has 
imposed fines of record proportion for the CPSC. And they have 
been well publicized in the newspapers. I think you raise an 
interesting question. I do not have a strong view that the caps 
are either appropriate or inappropriate, sir. I would like to 
take a look at that and come back to you and your staff. I am 
certainly very open to considering that, if that would be a 
more effective deterrent.
    Senator Inouye. Thank you very much.
    Mr. Chairman, I favor all of the nominees.
    The Chairman. Thank you very much, Senator.
    Ms. Nord, I have been reminded that the Consumer Product 
Safety Commission keeps track of snow machine and four-wheeler 
accidents----
    Ms. Nord. Yes, sir.
    The Chairman.--by surveying hospitals.
    Ms. Nord. Yes, sir.
    The Chairman. Most of these machines are used in rural 
areas, particularly in my state. And of the 230 rural villages, 
most of them do not have hospitals. They have very small 
clinics staffed by community health aides. Would you ask the 
Commission to consider expanding the accident survey program to 
cover these rural areas by contacting the entities that these 
people go to when injured? Hospitals are in major cities in my 
state. Clinics are in hundreds of places. And I do not think 
you are getting really a good sampling, a good survey, of 
accidents under the current procedure. I would urge you to ask 
the Commission to expand the concept, so that you ask the 
clinics for information, as well as hospitals. Are you willing 
to do that?
    Ms. Nord. Sir, I strongly believe that the more information 
you have about products and accidents, the better off you are 
going to understand the risks. So absolutely I would be happy 
to do that.
    The Chairman. We thank you very much. Senator Inouye and I 
both want to indicate for the record we intend to recommend 
that the Committee report favorably the nominations before the 
Committee now. And we look forward to working with you in your 
new capacity, as soon as you are confirmed.
    Thank you very much.
    Ms. Nord. Thank you.
    The Chairman. Thank you.
    Mr. Cobey. Thank you, sir.
    The Chairman. Thank you all.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]
                            A P P E N D I X

                                              April 4, 2005
Hon. Ted Stevens,
Chairman,
Hon. Daniel K. Inouye,
Ranking Minority Member,
Commerce, Science, and Transportation Committee,
Washington, DC.

    Dear Senators Stevens and Inouye:

    This letter is to support the nomination of Nancy A. Nord to be a 
Commissioner of the Consumer Product Safety Commission. I request that 
it be made part of the Committee's hearing record.
    Nancy was born and raised in South Dakota and I have known her and 
her family for many years. I believe that she would bring thoughtful 
and evenhanded leadership to the Commission. She has both management 
experience and substantive expertise on issues before the CPSC and 
would make a valuable contribution to the Commission.
    Nancy has my full support for this position. I hope that the 
Committee will move quickly to favorably report out this nomination.
                                               Tim Johnson,
                                                      U.S. Senator.
                                 ______
                                 
                            NC Department of Transportation
                                         Raleigh, NC, April 7, 2005
Hon. Ted Stevens,
Chairman,
Hon. Daniel K. Inouye
Co-Chairman and Ranking Minority Member,
Commerce, Science, and Transportation Committee,
Washington, DC.

    Dear Senators:

    The purpose of this letter is to indicate our enthusiastic 
endorsement of Commissioner Joseph H. Boardman of New York for the 
position of Administrator of the Federal Railroad Administration (FRA).
    Since 1997, it has been our privilege to work with Commissioner 
Boardman as a State Department of Transportation colleague on a wide 
range of transportation matters. The Commissioner has demonstrated 
extraordinary intelligence, leadership and dedication to public service 
principles through his chairmanship of the American Association of 
State Highway and Transportation Officials' Standing Committee on Rail 
Transportation (SCORT).
    As Chairman of SCORT Commissioner Boardman coordinated rail policy 
development by the several states states. These policies have included 
federal legislation, intercity passenger rail and Amtrak, development 
of Class I, II and III railroads, freight rail and labor issues, 
safety, intermodalism, security and other matters. His grasp of these 
issues is profound yet he also has the interpersonal skills to listen 
to the views of others in order to achieve consensus.
    I have personally observed the strengths of character and 
experience in Commissioner Boardman, and am confident that he will 
serve the nation well as Administrator of the FRA. Therefore I ask for 
your vote in consent of this confirmation.
        Sincerely,
                                             David D. King,
                                      Deputy Secretary for Transit.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Dr. Michael D. Griffin
    Question 1. Most recently, there have been many claims by 
government and industry scientists that the Administrations is ignoring 
the facts concerning climate change science and has been filtering some 
of the data that makes it into final reports. What are your thoughts on 
the state of climate change science?
    Answer. I think that the President's Climate Change Research 
Initiative is the right approach--there are questions that we can 
answer in a relatively short amount of time that can directly inform 
the policy debate. My understanding is that, through the agencies 
participating in the Climate Change Science Program, we are developing 
a suite of assessments to update our state of knowledge on some of 
those key climate questions. These assessments are supported by NASA 
observations and research, a responsibility I take very seriously.

    Question 1a. How do you plan to deal with such accusations and 
ensure that the research results are accurately represented in final 
reports?
    Answer. NASA's role is to produce the best science possible to 
inform policy--not to make policy. As Administrator, I will work to 
ensure that only the highest quality science is accomplished, and that 
all research results which have been technically reviewed and found to 
be sound, are made available. The scientific process mandates that data 
and analyses be disseminated and that technical review and challenges 
be conducted. This is the way science advances. NASA will not filter 
research for political expediency.

    Question 2. NASA is planning to return the Shuttle to flight next 
month. The Committee last year passed a NASA authorization bill that 
required NASA to certify to the Congress that the safety 
recommendations, identified as ``Return-to-Flight'' by the Columbia 
Accident Investigation Board, have been satisfied before returning to 
flight. Can you support such an action?
    Answer. It does not appear to be technically possible to satisfy 
the full scope of the CAIB recommendations for return to flight. For 
example, the CAIB recommended NASA develop a comprehensive inspection 
and repair capability to cover the widest possible range of damage 
scenarios, but we still do not know how to repair a hole in a wing such 
as that which is believed to have been responsible for the loss of 
Columbia. Thus, my first efforts as I assume the leadership of NASA 
will be to understand fully what can be, and has been, done to assure 
that the Shuttle will fly, for the remainder of its service, as safely 
as the technical state of the art permits. If I find the Shuttle to be 
unsafe, I will not give the go-ahead for it to fly until all necessary 
corrective actions have been taken. These are the actions that I can 
and will support.

    Question 3. In a recent article concerning the Space Shuttle's 
return-to-flight, Commander Eileen Collins and other crew members 
indicated that they would fly only if the Stafford-Covey Group and the 
agency's leadership agreed that Columbia Accident Investigation Board's 
``Return-to-Flight'' recommendations have been met. The Stafford-Covey 
Group recently cancelled a meeting to discuss NASA's work on these 
recommendations because of a lack of information from NASA. Does this 
situation cause concern for you?
    Answer. This situation will be of concern to me if it has been 
accurately reported by the media, a matter into which I will probe at 
my first opportunity. If NASA is withholding information necessary for 
analysis by the Stafford-Covey group, I will deal swiftly and surely 
with that situation. If, however, the information is unavailable or 
simply not yet available, this would be a matter leading to a different 
outcome. Summarizing, I will deal with the entire return-to-flight 
issue as immediately and thoroughly as possible after confirmation.

    Question 4. According to a recent General Accountability Office 
report, the Space Shuttle program has made limited progress toward 
developing a detailed long-term strategy for sustaining its workforce 
through the Space Shuttle's retirement. What are your plans for 
addressing workforce issues while also considering safety and the 
development of a replacement vehicle for the Shuttle system?
    Answer. I do not yet have such plans. After confirmation, I will 
develop a full understanding of the existing situation, and develop a 
strategy for the required workforce transition. I will share this 
strategy with the Congress as it becomes available.

    Question 5. You previously served as President and Chief Operating 
Officer of In-Q-Tel, a CIA supported organization that invests in 
private companies to ensure greater availability of intelligence-
related technologies for the government. Do you think this approach or 
model is useful in other parts of the government?
    Answer. Though I can take no credit for the invention of the In-Q-
Tel model, I believe it to be a thoroughly excellent approach for 
achieving ``spin in'' of the latest and best results of the high-tech 
community into government agencies, including NASA. I plan to support 
the furtherance of this model at NASA.

    Question 6. Will NASA perform an astronaut servicing mission to the 
Hubble Space Telescope, as recommended by the recent National Academies 
report on the ``Assessment of Options for Extending the Life of the 
Hubble Space Telescope'' ?
    Answer. I cannot say whether NASA will support such a mission 
without further review, after we have completed our initial return-to-
flight mission, STS-114. Immediately after this is accomplished, I will 
commission a thorough, impartial review of the operational and 
financial factors involved in making such a decision, will bring it to 
a speedy conclusion, and will fully share the results of this review, 
my decision, and the rationale for this decision, with the Congress.

    Question 7. How will cost overruns in the Shuttle program and the 
development of the Crew Exploration Vehicle be kept in check? Do you 
foresee robotic missions and research programs in the Science Mission 
Directorate shouldering the burden for overruns in the manned program, 
as has happened in recent months?
    Answer. I believe that NASA has the ability to improve its 
execution of the basic ``blocking and tackling'' of program management. 
I will make this a major effort after confirmation; there is no reason 
why NASA should not be the leader in the cost-effective execution of 
government aerospace programs. I will endeavor to avoid having 
scientific or aeronautical research programs ``shoulder the burden'' 
for overruns in the manned spaceflight program.

    Question 8. What do you see as the role of science in NASA's Vision 
for Space Exploration?
    Answer. Science is one of the fundamental goals of the Vision for 
Space Exploration. Opportunities to perform new and interesting 
scientific investigations, in new ways and at new destinations, will be 
an integral part of the Vision for Space Exploration. I am committed to 
the preservation of a robust science program at NASA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                         Dr. Michael D. Griffin
    Question 1. With the ongoing war on terror and budget, CAN the 
country afford a new launch system to meet the Exploration vision in 
the near future?
    Answer. Yes, the country can afford a new launch system if one is 
needed to support the Vision for Exploration. It is likely that any new 
launch system would be based on existing components, which would 
probably cost less than the development of an entirely new vehicle. The 
President is not seeking major increases in NASA funding; rather, the 
Vision sets a new direction for the use of funds presently allocated 
for NASA's human spaceflight program.

    Question 2. What transition or gap roles do you see for the Michoud 
Assembly Facility? As the new NASA Administrator how will you ensure 
there will be sustained funding for Michoud between the Shuttle 
retirement and Exploration start up?
    Answer. It is likely that NASA will need a heavy-lift vehicle to 
support the vision for space exploration. An analysis of future space 
launch requirements is called for in the National Space Transportation 
Policy. The policy further calls for NASA and the DoD to work together 
to develop a roadmap to meet these requirements and until that roadmap 
is complete, it is not clear exactly what type of launch vehicles will 
be used to support exploration. However, NASA cannot implement the 
development of a heavy-lift launch vehicle without the skills, tooling, 
and handling equipment necessary for large system components. Critical 
facilities and skills necessary for these capabilities exist at 
Michoud. Such facilities and skills at Michoud and elsewhere in the 
program will be identified and transition plans to preserve them will 
be developed.

    Question 3. Tell us your thoughts on HLLV and SDV. What role will 
Michoud play?
    Answer. Any heavy-lift launch system for the Vision for Exploration 
will, if it is to be efficient and cost effective, involve large 
components. The largest system component available in the world today 
and which is applicable to the heavy-lift requirements of Exploration 
is the Shuttle External Tank. In one form or another, I would expect 
the fabrication and handling facilities and the skills resident at 
Michoud to be essential to the Exploration vision.

    Question 4. How will NASA transition the human capital on STS/ISS 
to Space Exploration projects?
    Answer. My intention is to define the architectural elements and 
program plans for the Vision for Exploration on a timetable that allows 
us to transition the human capital with the requisite skill sets from 
the Shuttle/ISS programs as these programs wind down.

    Question 5. I have been watching the progress of NASA over the past 
year in moving to establish a centralized Shared Service Center for 
administrative processing for the Agency. My understanding is that 
final selection of a site for the NSSC is imminent. Are you prepared to 
move ahead promptly with this cost-savings/one NASA initiative? How 
will you ensure that your final selection of a site for the NSSC 
provides the most savings of FTE and dollars for the Agency?
    Answer. It is my understanding that an impartial source selection 
board has studied this issue and is prepared to announce its final 
selection shortly. After a review of the concept and its implications, 
I will commit to implementing this cost-saving initiative. I will 
review the selection results before any announcement is made, and will 
ensure that the most globally beneficial solution has been chosen.

    Question 6. Establishing and staffing a new center to execute the 
NSSC appears contrary to the much publicized 2006 targeted reductions 
at some of the centers, are you prepared to support this 
transformation? (Distinction between Administrative jobs (NSSC) vs. 
aeronautical/exploration/engineering type jobs.)
    Answer. I will review the plans for this transformation to ensure 
that it truly delivers the expected cost-saving benefits and, if so, 
will support it. Reductions in administrative positions at individual 
Centers will be tolerable if they help NASA achieve greater overall 
efficiency.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Dr. Michael D. Griffin
    Question 1. There is a possibility that Stafford-Covey may decide 
that one or more of the Return to Flight Recommendations have not been 
completed to their satisfaction. What action will you take if this 
scenario occurs?
    Answer. In such a case, I will examine the issue to determine 
whether the NASA shuttle program managers agree, or differ, with the 
Stafford-Covey assessment. If they do differ, I will determine whether 
it is believed that there is any possibility of meeting the intent of 
the recommendation(s) within the limits of existing technology and the 
available financial means. If the problem cannot be solved, or cannot 
be solved within a budget and timeframe which is useful to the 
continued support of the ISS, it will be necessary to make a 
determination as to whether or not to accept the risk of flying with 
the known deficiency, relative to the CAIB recommendations. This will 
be done in a full and open manner, with all stakeholders involved.

    Question 2. What qualities will you look for in potential Senior 
Level Managers at NASA?
    Answer. Potential senior managers at NASA must have unimpeachable 
integrity, high intelligence, appropriate experience with operational 
space programs, prior senior management experience, excellent ``people 
skills,'' high energy, total commitment, and a proven ability to ``get 
things done'' in the real world.

    Question 3. Can you provide assurances that NASA will do what it 
can, as a matter of priority, to assure that crew survivability in a 
wide range of scenarios is considered, and implemented to the extent 
feasible, during the design and development of the next generation NASA 
Human Space Vehicle?
    Answer. No issue is more important to me than to assure that the 
fullest possible range of crew survivability options is considered in 
the next generation of manned space vehicle design.

    Question 4. NASA is hoping to embark on an ambitious journey into 
Space using a Crew Exploration Vehicle. America is well aware of NASA's 
history of cost overruns. So, it is especially crucial, that NASA make 
marked improvements over previous programs in the area of cost 
estimation and life cycle costing. Do you have some ideas on how NASA 
can improve in this area?
    Answer. It is my opinion that the discrepancy between predictions 
and achievements in regard to the cost estimation of aerospace programs 
generally, whether executed on behalf of DoD or NASA, is more a matter 
of improper program execution than it is a matter of incorrect 
estimation. We have only to consider the commercial communications 
satellite sector to realize that it is quite possible, when profits are 
at stake, for aerospace companies to produce complex yet reliable 
spacecraft on time and on budget. The establishment of greater 
discipline in program management within government-sponsored space 
programs will be the more fruitful path for us to pursue. Improved cost 
estimating techniques are certainly desirable, but more accurate 
estimates of unacceptable results is hardly the result we need.

    Question 5. Do you have any comments about the importance of 
lessons learned for NASA's future?
    Answer. I prefer to think of these as ``lessons applied'' rather 
than ``lessons learned,'' as only the application of a ``lesson 
learned'' will really yield a different outcome. Such lessons are the 
only means by which we add to the accumulated body of knowledge, both 
art and science, that is required for the United States to be the 
preeminent spacefaring nation. Nothing is more important for NASA's 
future than effectively incorporating such knowledge.

    Question 6. Are you familiar with the Plasma Rocket? Once you have 
been confirmed, will you look into it as an option for the next 
generation human rated spacecraft, and for other applications?
    Answer. I am familiar with the plasma rocket in general terms, and 
consider it to be an excellent possible option for use in helping to 
implement the Vision for Exploration. It is likely, however, that the 
most effective use of the plasma rocket in the future will be in the 
shipment of cargo, rather than on crewed vehicles.

    Question 7. The same logic applies that NASA is using for Space 
Shuttle missions--if the ``Crew Exploration Vehicle'' has a problem, 
the ability to dock with the space station could be a life saver. What 
will you do to assure that the next generation human rated spacecraft 
can dock with the Space Station?
    Answer. The primary purpose of the CEV is to support exploration, 
an objective I fully support. The recent Request for Proposal (RFP) 
released by NASA does not require the Crew Exploration Vehicle (CEV) to 
go to the International Space Station (ISS). Rather it is a capability 
that the contractors are asked to assess. The final requirements for 
the CEV are planned to be established next year during the Systems 
Requirements Review and will be informed by the analyses and trades 
made by the contractor teams. I plan to work with the Exploration 
Directorate to understand the rationale for this capability being 
optional and see whether this ``option'' should be made a 
``requirement.''

    Question 8. Would you like to comment on orbital debris and its 
danger to human spaceflight?
    Answer. This is a topic with which I have had to become conversant 
with in recent years, and which is treated in some detail in my 
textbook, Space Vehicle Design. Briefly, we are now aware that space 
debris, even that consisting of very small particles (e.g., 1 
millimeter in size) can be very damaging, even fatal, to space vehicles 
of any kind, manned or unmanned. The generation of orbital debris must 
be strictly controlled. Numerous internationally accepted guidelines 
for space operations to minimize debris generation exist, and I believe 
these guidelines should be followed by the United States and all 
spacefaring nations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Joseph H. Boardman
    Question 1. As you know, Louisiana has experienced four train car 
collisions earlier this year. How has the Federal Railroad 
Administration responded to these collisions?
    Answer. I am aware of your unfortunate experience. I understand 
that the FRA is working with the State of Louisiana to develop a State 
Action Plan focusing on crossing safety. If confirmed, I will make 
every effort to foster cooperation between the FRA and the State to 
ensure the safety of Louisiana's citizens.

    Question 2. Louisiana on average per year has received $3.2 million 
from the Federal STP Railroad Hazardous Elimination Fund since 1987. 
Each year the Louisiana Department of Transportation and Development 
spends an additional $7 million on railroad safety. Why has the federal 
portion stayed the same for 18 years?
    Answer. I do not currently know the answer. If confirmed, I will 
examine this issue and follow up with you.

    Question 3. I understand Secretary Mineta will retransmit the Bush 
Administration's rail safety reauthorization bill in the near future. 
How will this proposed piece of legislation address the recent 
automobile train collisions that have occurred in Louisiana?
    Answer. I understand the Administration's rail safety bill is in 
the process of being drafted, and it would be inappropriate to comment 
on it prior to introduction. However, if confirmed, I pledge to work 
with you to ensure that Louisiana's recent crossing accidents are 
considered in the drafting process.

    Question 4. Louisiana has 3,000 miles of railroad tracks and 6,017 
rail crossings: 3,017 public crossings and 3,000 on private property. 
As the new Federal Railroad Administrator how will you assist states 
who would like to consolidate and/or close railroad crossings? There is 
very strong opposition from local communities about closing railroad 
crossings. Will the Federal Railroad Administration work with states to 
provide incentives to the states/local communities regarding railroad 
crossing closures?
    Answer. I know that the FRA has been a strong advocate for closing 
highway-rail crossings. FRA headquarters and field staff will work with 
states to explore the options and explain to communities the benefits 
from closing crossings. In addition, Section 130 program funds are 
available--up to $7,500--for each crossing closed if matched by the 
railroad that maintains the highway-rail crossing to be closed. Since 
having fewer crossings is in the interest of railroads, they will often 
provide much more than $7,500 to assist communities in the closing of a 
highway-rail crossing. If confirmed, I will ensure that FRA staff is 
made available to help advise communities of their options.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           Joseph H. Boardman
    Mr. Boardman, in my state of North Dakota, the community of Fargo/
Moorhead has been working with Burlington Northern Santa Fe Railroad 
(BNSF) to implement a quiet zone so that BNSF will stop blowing its 
horn when its trains go through town, while insuring the safety of the 
citizens and rail travelers. The communities have, and continue to 
expend significant funds and time to have this quiet zone go into 
effect, and the delays by the FRA stand to jeopardize these efforts.
    Question 1. The Swift Rail Development Act of 1994 contemplated a 
rule-making process for quiet zones to be completed years ago. Every 
supplementary safety measure (SSM) is believed to reduce the 
possibility of accidents at grade crossings substantially--some by as 
much as two-thirds. It can be argued that the delay in the adoption of 
a final rule could cost lives. Are you committed to the adoption of a 
final rule as quickly as possible?
    Answer. I am happy to report that the Department of Transportation 
issued the Final Rule on the Use of Locomotive Horns at Rail-Grade 
Crossings on April 22, 2005.

    Question 2. On April 12, 2005, I introduced the Welded Rail and 
Tank Car Safety Improvement Act with my colleague Senator Kay Bailey 
Hutchinson, to direct the FRA to implement the track and tank car 
safety measures recommended by the NTSB after a terrible derailment 
that took place in Minot, ND in 2001. If you are confirmed to the 
Federal Railroad Administration will you commit to move ahead with 
implementing the recommendations with utmost expediency?
    Answer. I understand that the FRA is actively working to address 
the recommendations made by the NTSB in the wake of the Minot 
derailment. If confirmed, I will ensure that this effort is given high 
priority.

    Question 3. Do you feel that FRA has all of the resources it needs 
to operate? Does the FRA need more inspectors in order to effectively 
carry out its duties?
    Answer. I believe that the FRA's budget is adequate and reflects 
its current level of responsibility. If confirmed, I will engage in an 
evaluation of how FRA resources are used, and how they might be used in 
the future. I will also look at how risk is measured now, and how we 
might do that job differently so that we can target our resources to 
improve rail safety.

    Question 4. I understand that you have experienced several serious 
grade crossing accidents and other safety incidents in New York State 
over the past 2 years. As Commissioner, please describe your 
experiences in dealing with the FRA. Did you feel that the FRA had all 
the resources it needed to effectively achieve its mission in regard to 
those instances?
    Answer. During my time as Commissioner, the New York State 
Department of Transportation (NYSDOT) and the FRA have been partners 
under the Federal Railroad Safety Program for State Participation 
Agreement. This partnership existed before my time as Commissioner. 
Under this agreement, FRA conducts inspections and investigations in 
concert with NYSDOT. FRA's participation with us helps both agencies 
maximize our resources, and our partnership works well. The grade 
crossing accidents and other safety incidents that occurred in New York 
in the past 2 years were unfortunate, but I believe that both NYSDOT 
staff and FRA staff were effective in their responses.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Joseph H. Boardman
    Question 1. What is your opinion of the Administration's calls for 
Amtrak's bankruptcy? Do you believe that bankruptcy is a prudent or 
feasible way to restructure Amtrak?
    Answer. I believe that Secretary Mineta has stated that the 
President's budget is a ``call to action.'' I understand that the 
budget raises the possibility of bankruptcy as a consequence of a 
failure to enact meaningful reform.
    I am firmly committed to enhancing intercity passenger rail in the 
United States. If confirmed I will work with this and other 
congressional committees, states, and stakeholders to find a reasonable 
solution for reforming passenger rail service in the United States.

    Question 2. Many have characterized the Federal Railroad 
Administration (FRA) as an agency ``adrift'' because of a series of 
senior-level management changes over the past year. What will you do as 
Administrator to help focus and reinvigorate the FRA?
    Answer. I have never led an organization that did not contain good 
people, good ideas, and the seeds for excellence. This means that I 
will first look within the FRA for the answer. Starting from the 
inside, I will encourage necessary developmental activities and 
training. I will not forget that I will be held accountable by the 
President and Congress for a clear direction for the FRA, and if 
confirmed, I will accept that accountability.

    Question 3. What will your top priorities be as FRA Administrator?
    Answer. If confirmed, I will focus my efforts first and foremost on 
safety. I am also committed to reforming the nation's intercity 
passenger rail service. Finally, I believe it is imperative to properly 
develop staff within the FRA.

    Question 4. Do you believe the Federal Government should play a 
role in the financing and development of rail infrastructure and 
service?
    Answer. Yes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Joseph H. Boardman
    Question 1. What do you perceive as the railroad industry's biggest 
safety problem?
    Answer. I believe that, because of several recent high-profile 
accidents, the public is beginning lose confidence in the railroad 
industry's safety record. The industry must demonstrate that they are 
willing to exceed safety expectations, not just meet the minimums. 
Safety must be treated as the most important issue to every railroad 
company, without as much as a hint of complacent behavior.

    Question 2. Do you feel that security is adequately provided for in 
today's railroading environment?
    Answer. I do not have that answer at this time. If confirmed, I 
will partner with the Department of Homeland Security and the 
Transportation Security Administration to secure our railroad 
environment.

    Question 3. As Commissioner of Transportation for the State of New 
York, do you agree with the Administration's plan for Amtrak, as it 
wants to place most of the responsibility for passenger rail funding 
with states?
    Answer. My experience as Commissioner of Transportation has 
convinced me that intercity passenger rail is critically important to 
both New York State and the Northeast region of the United States. In 
the Northeast, states already play a large role in intercity passenger 
rail. We have at least eight northeastern non-Amtrak passenger rail 
providers, and each operates cooperatively. However, even though the 
provider cooperation belies a ``system'' for all intents and purposes, 
they each consider themselves to be independent operators. Based upon 
this experience, I believe it is possible for states to come together 
to develop an intercity rail system. At the same time, the Federal 
Government must play a significant role in state-based intercity 
passenger rail.

    Question 4. You stated in your preface to AASHTO's Standing 
Committee on Rail Transportation Intercity Passenger Rail 
Transportation report that ``rail passenger service provides much 
needed capacity and redundancy to the transportation system.'' Given 
the events on September 11, 2001, and the possibility of future 
terrorist acts in the United States, do you feel that passenger rail 
service is a necessary component of our national transportation system?
    Answer. Yes.

    Question 5. As Commissioner of Transportation in New York, did you 
interact with passengers who used Amtrak on September 11, 2001, and the 
week following, when aviation was entirely shut down? If so do you feel 
their reliance on Amtrak, even if it was the only time they rode 
Amtrak, justifies such service?
    Answer. I have had interaction with passengers who used Amtrak as a 
result of the attack on 9/11/01. I believe that there is clear 
emotional support by those who used passenger rail to complete their 
trips during the aftermath of the terrorist attack on New York. I think 
having intercity passenger service available as a redundant mode for 
use is certainly a factor to be evaluated in support of intercity 
passenger rail, but I do not believe that it is the sole or primary 
factor.

    Question 6. The Administration is proposing a massive shift of 
funding responsibility from the Federal Government to the states. As 
Chair of AASHTO's Standing Committee on Rail Transportation, do you 
agree with the Administration's plan for Amtrak?
    Answer. I believe that reform is needed. Stable intercity passenger 
rail is important to the states. The states believe that it is time to 
resolve future funding assistance for all modes of transportation, 
including rail passenger service. AASHTO has called for the enactment 
of long-term legislation assuring that the nation's travelers will have 
efficient and dependable intercity passenger rail service.

    Question 7. If Amtrak does not continue to operate as a railroad, 
as proposed in the Administration's reform proposal, what effect do you 
feel there will be on the safety of Amtrak's rail operation and 
coordination between infrastructure?
    Answer. Infrastructure safety must be provided for under any model, 
and the Federal Government will maintain a strong hand to ensure that 
safety is the first priority. I believe that any intercity passenger 
rail reform will require that the Federal Government bring 
infrastructure up to a standard of good repair (SOGR) for those assets 
under its control and accountability. The states should have a stake in 
any SOGR decision.

    Question 8. Are you familiar with Great Britain's experience in 
separating infrastructure management responsibilities with operating 
responsibilities on a massive scale? Given the safety implications of 
that experience, do you feel it was a wise move? Do you feel such a 
move is wise for the Northeast Corridor management responsibilities?
    Answer. My understanding is that Great Britain's experience with 
separating rail infrastructure management responsibilities from rail 
operations involved dividing passenger services into 25 operating 
units, and infrastructure maintenance into seven maintenance companies 
and six track renewal companies. The British approach was far too 
complex. We have learned a great deal from Britain's experiences. Thus, 
I don't think anyone envisions the U.K.'s controversial approach being 
applied to the NEC. Rather, separation of infrastructure from 
operations on the NEC could emphasize clarity of responsibility, built-
in incentives that support rather than undermine the underlying goal of 
cost-effective public transportation, and transparency of costs and 
their allocation. This approach could enable each entity to focus more 
clearly on its specific goal and responsibility.

    Question 9. Amtrak is the only carrier that runs the length of the 
Northeast Corridor, and therefore is the only entity with an interest 
in ensuring infrastructure standards are constructed and maintained on 
a level of safety and engineering to support high-speed rail service. 
In fact, on many segments, Amtrak runs the only passenger rails. Given 
these facts and the myriad regional interests of the commuter rail 
users of the Northeast Corridor, do you believe that the Northeast 
Corridor can be equitably run with the leadership of Amtrak?
    Answer. Integral to any restructuring solution for the Northeast 
Corridor would be effective coordinating mechanisms for such joint 
tasks as scheduling, dispatching, accounting, and engineering. I 
believe that the states would have a strong interest in making sure 
these coordinating mechanisms are efficient and effective, and that the 
intercity operations maintain their relatively high quality of service, 
thereby making the highest possible contribution to the bottom line of 
the whole operation. Accordingly, there is every reason to expect that 
a new, intelligently-designed structure would be capable of managing 
the Northeast Corridor equitably.

                                  <all>

</pre></body></html>
